<html>
<title> - SOCIAL SECURITY ADMINISTRATION OVERSIGHT: EXAMINING THE INTEGRITY OF THE DISABILITY DETERMINATION APPEALS PROCESS, PART II</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 SOCIAL SECURITY ADMINISTRATION OVERSIGHT: EXAMINING THE INTEGRITY OF 
         THE DISABILITY DETERMINATION APPEALS PROCESS, PART II

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                           Serial No. 113-126

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

89-595 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2014....................................     1

                               WITNESSES

The Hon. Carolyn W. Colvin, Acting Commissioner, Social Security 
  Administration
    Oral Statement...............................................     7
    Written Statement............................................     9

                                APPENDIX

Baltimore Sun article submitted by Rep. Cummings.................    56
Opening Statement by Rep. Cummings...............................    59
Response from SSA to questions from Reps. Lankford and Speier....    61
Answer from SSA to how much it costs to do a full medical review.    67
June 27, 2013, Statement of ALJ Sullivan, submitted by Chairman 
  Issa...........................................................    68
Response to Rep Mica's question regarding cooperative disability.    91
SSA response to Rep. Gosar regarding hearing decisions...........    92
SSA response to Rep. Duncan regarding SSDI beneficiaries in 
  current pay status.............................................    93
SSA response to Chairman Issa regarding National ALJ allowance 
  rates..........................................................    94
SSA letter in response to Chairman Issa's questions regarding 
  ALJs...........................................................    95
SSA response to Rep. Cummings regarding benefits.................    96

 
 SOCIAL SECURITY ADMINISTRATION OVERSIGHT: EXAMINING THE INTEGRITY OF 
         THE DISABILITY DETERMINATION APPEALS PROCESS, PART II

                              ----------                              


                       Wednesday, June 11, 2014,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:34 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Duncan, Jordan, 
Chaffetz, Walberg, Lankford, Amash, Gosar, DesJarlais, Woodall, 
DeSantis, Cummings, Maloney, Tierney, Connolly, Speier, 
Cartwright, Lujan Grisham, and Kelly.
    Staff Present: Melissa Beaumont, Majority Assistant Clerk; 
Brian Blase, Majority Senior Professional Staff Member; Molly 
Boyl, Majority Deputy General Counsel and Parliamentarian; 
David Brewer, Majority Senior Counsel; Caitlin Carroll, 
Majority Press Secretary; Sharon Casey, Majority Senior 
Assistant Clerk; John Cuaderes, Majority Deputy Staff Director; 
Adam P. Fromm, Majority Director of Member Services and 
Committee Operations; Linda Good, Majority Chief Clerk; Mark D. 
Marin, Majority Deputy Staff Director for Oversight; Emily 
Martin, Majority Counsel; Jessica Seale, Majority Digital 
Director; Andrew Shult, Majority Deputy Digital Director; 
Sharon Meredith Utz, Majority Professional Staff Member; 
Rebecca Watkins, Majority Communications Director; Jaron 
Bourke, Minority Director of Administration; Jennifer Hoffman, 
Minority Communications Director; Julia Krieger, Minority New 
Media Press Secretary; Juan McCullum, Minority Clerk; Suzanne 
Owen, Minority Senior Policy Advisor; and Brian Quinn, Minority 
Counsel.
    Chairman Issa. The committee will come to order.
    This second hearing on the Social Security Administration 
Oversight: Examining the Integrity of the Disability 
Determination Appeals Process, Part II, will come to order.
    The Oversight Committee mission statement is that we exist 
to secure two fundamental principles: first, Americans have a 
right to know that the money Washington takes from them is well 
spent and, second, Americans deserve an efficient, effective 
Government that works for them. Our duty on the Oversight and 
Government Reform Committee is to protect these rights. Our 
solemn responsibility is to hold Government accountable to 
taxpayers, because taxpayers have a right to know what they get 
from their Government. It is our job to work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    The Social Security Disability Insurance Program and 
Supplemental Security Insurance Program have both seen 
explosive growth over the past decade. Through these programs, 
nearly 20 million people receive approximately $200 billion in 
annual cash payments.
    Yesterday we heard testimony from four administrative law 
judges, normally called ALJs, who clearly rubber-stamped the 
cases brought before them. Rubber-stamping not because they 
agreed with the lower determinations to reject these claims, 
but rubber-stamping the lawyers who said my client is disabled, 
even though competent administrators beneath had not once, but 
twice in many cases, said no.
    We heard from ALJs who created their own theories of 
disability; who awarded benefits to thousands of decisions 
without even holding hearings or considering the evidence; who 
failed to utilize medical or vocational experts during their 
hearings; who do not understand agency policy and repeatedly 
misapplied the rules of the Social Security Administration; and 
we heard about ALJs who fell asleep during hearings, who made 
inappropriate comments and gestures directed at female 
employees.
    Every case that comes before ALJs has already been denied 
at least once, and sometimes twice. Yet ALJs overturned a 
shocking number of these denials. Over the last decade, 191 
ALJs reversed at 85 percent or higher these decisions. These 
191 ALJs awarded lifetime benefits in excess of $150 billion 
tax dollars.
    While the ALJs that we featured yesterday do not represent 
the majority of judges, not by far, they do represent a 
sizeable number of ALJs, and even one incompetent ALJ can waste 
billions of taxpayers dollars over the course of his or her 
tenure by inappropriately placing individuals on disability for 
life.
    Many of the ALJs who have demonstrated gross incompetence 
and profound misjudgment should be fired, yet action is rarely 
taken either by the Social Security Administration or Justice 
Department to stop misconduct or even illegal activity.
    Today's hearing will address the Social Security 
Administration's role in this mess. For years the agency's 
barometer for ALJ performance was a quantity of cases that ALJs 
decided each year. Prior to 2011, the agency never investigated 
whether judges were engaging in proper decision-making. At 
multiple hearings now, including yesterday, ALJs told us and 
the committee that they felt pressured to meet a quota of 
decisions each year. Judges testified they received training 
from the agency to speed up their decision-making, including 
instructions to set an egg timer limiting reviews to no more 
than 20 minutes per case.
    Simply put, in the past, the agency's emphasis on high 
volume decision-making directly contributed to ALJs likely 
awarding benefits to hundreds of thousands of people who simply 
were not disabled. Among its many responsibilities, the agency 
needs to deal with the ALJs who have lost, or should have lost, 
the public trust.
    I think it is obvious that all four of the ALJs that 
appeared before us yesterday should no longer be trusted to 
spend your money in the Disability Trust Fund.
    Today I want to know whether Ms. Colvin is going to take an 
aggressive approach in removing incompetent ALJs. Thus far, she 
has refused to heed my recommendation to take stronger action 
with ALJ Bridges, Taylor, even though both received multiple 
reviews showing gross incompetence and negligence.
    In 2012, the agency did make a necessary reform and it did 
finally begin an assessment comparing all ALJs' volume of 
decisions and the quality of those decisions. The results of 
the study are clear. From the study, there is a ``strong 
relationship between production levels and decision quality on 
allowances as ALJ production increased. The general trend for 
decision quality is to go down.'' Now, to say that less 
mangled, quantity reduces quality. While having a reasonable 
quantity level allows for at least those ALJs who want to do a 
better job to do that better job.
    I appreciate the commissioner being here today and 
appearing before the committee. Key questions before us are: 
What do we do about the people who were wrongly awarded 
benefits by ALJs? And how do we fix a system going forward?
    I trust the commissioner is, every day, thinking about this 
and is prepared to give us her thoughts today and to answer our 
questions.
    I want to close by reminding all of us on both sides of the 
dais this was not a problem of this Administration; this was a 
problem that took a decade to grow. ALJs are not political 
appointees, per se, but they are people who spend American 
taxpayer dollars at a higher rate than virtually everyone else 
in Government.
    So as we work to fix a problem not created by one 
administration, I want us all to show deference to the fact 
that the problem is here before us. The problem took a decade 
to grow and I look forward to working together to fix it.
    I now recognize the ranking member.
    Mr. Cummings. I want to thank the chairman.
    Let me thank the commissioner for being here. Commissioner 
Colvin, we know you have a very difficult job. You are the 
steward of the Disability Insurance Program, which is a 
critical lifeline for people who become disabled and can no 
longer work, and I don't want us to lose focus of that. 
American workers contribute to this program out of their 
paychecks, hardworking Americans. They need and deserve to have 
the Disability Insurance Program that gives them fair and 
timely hearings based on medical evidence if they become 
disabled and unable to work.
    I know you are working hard to get it right. The majority 
of the Social Security Administration's 60,000 employees, 
including 1500 administrative law judges, are doing the same. 
Many of them are my constituents. And, by the way, the people 
who are serviced by Social Security are all of our 
constituents, and I don't ever want us to lose sight of that. 
They tell me themselves how hard they are working to provide 
the services that Americans count on. They also tell me that 
there have been instances now where one person is now doing the 
job that three people used to do. And the fact is your efforts 
are working.
    Over the last decade, the Social Security Administration 
has significantly improved its efforts to collect and analyze 
data about judges' decisions; it has expanded training, 
improved performance, sharpened disciplinary procedures, and 
enhanced efforts to combat fraud. And the chairman is right, if 
there are things that you think we need to do to help you 
address this issue, you need to let us know, because it is one 
thing for us to be up here criticizing the Administration when 
we don't give you the resources you need and the backing that 
you need to accomplish what you have to accomplish.
    Yesterday we heard from a handful of administrative law 
judges who fail to meet agency standards for conduct and 
professional judgment. No doubt about it. These judges are 
outliers who do not reflect the good work of the majority of 
administrative law judges. We had four here yesterday. I 
understand there are about 1500 in the Nation.
    The evidence shows that the agency is committed to 
protecting the qualified decisional independence of the judge 
corps, and that is very, very significant. These judges act 
independently. We heard them yesterday talk about how much they 
guard their independence. So you are really walking a real thin 
line here. On the one hand you have to make sure they have 
independence, but like Chief Judge Rice said in a transcribed 
interview, you also, at the same time, have to make sure that 
you can't tell them they have to have a certain percentage 
going in favor and a certain percentage going the other way. So 
it is kind of difficult to do.
    That commitment is fundamental to ensuring the integrity of 
the program and the rights of American citizens. We are talking 
about due process and equal protection under the law. But the 
evidence also shows that you are dealing with judges who go 
beyond judicial independence and ignore the policies 
established by the agencies. There is absolutely something 
wrong with that. In fact, you are now pursuing the removal of 
judges with the Merit Systems Protection Board, when such 
actions were unheard of a decade ago.
    It is in all of our interest to get this right. We have a 
responsibility not just to highlight problems, but to correct 
them when they are identified; and that is why the spotlight 
should also shine on this body, us. Our investigation shows 
that Congress has failed to adequately fund program integrity 
efforts that would curb abuses. Congress has failed to provide 
the resources needed by the inspector general. And we all have 
a lot of respect for our inspectors general to combat fraud. 
And Congress has failed to provide the resources needed to 
provide timely access to disability hearings.
    Mr. Chairman, I would like to enter into the record an 
article from the Baltimore Sun reporting that residents in my 
district are waiting for 17 months for hearings.
    Chairman Issa. Without objection, so ordered.
    Mr. Cummings. We heard testimony during our investigation 
that some people waited so long for their hearings that they 
died waiting. That they died waiting. That is an outrage and we 
are better than that. And that is one grave cost of austerity.
    Mr. Chairman, it is time to put our money where our mouth 
is. Is the Congress going to invest in the integrity of the 
Disability Insurance Program? Is Congress going to adequately 
fund anti-fraud units in all 50 States? Is Congress going to 
appropriate sufficient resources to eliminate these backlogs? 
In my opinion, that is what we have to do and that is what we 
must do, and I look forward to your testimony.
    With that, I yield back.
    Chairman Issa. Thank you.
    We now go to the gentlelady from California for a brief 
opening statement.
    Ms. Speier. Mr. Chairman, thank you.
    I would like to wholeheartedly endorse every word of my 
ranking member's statement. I think he put it extremely well.
    I want to thank the chairman for holding this hearing 
today. It is the fifth oversight hearing that we have had on 
Social Security disability. The previous three were held in our 
Subcommittee on Energy Policy, Health Care and Entitlements, 
and again I would like to take note of the leadership of my 
colleague, Mr. Lankford, and his leadership on that committee.
    During the course of the committee's oversight of Social 
Security, we have learned that there is room to do disability 
insurance better. We need to have more program integrity, more 
prevention of improper payments, and more commitment to 
improving quality.
    While the agency has taken steps towards reform, it has 
become clear that some of the concerns can only be addressed by 
Congress with additional resources for quality assurance and 
program integrity efforts.
    Yesterday's hearing focused on four outlier judges that had 
unusually higher allowance rates. In many respects it was a 
dismal hearing. It was embarrassing, I think, for many of us to 
listen to. They process an extraordinary number of cases, some 
without even ever seeing the claimant. In fact, in one case, I 
think it was Judge Taylor, of the 8,000 cases that he had, 
6,000 of them were done on the record without ever seeing the 
claimant. And some cases substituted their own personal beliefs 
for expert medical advice.
    I do not believe that the judges invited to testify 
yesterday were representative of the judge corps. Most of the 
ALJs are conscientious public servants and had an allowance 
rate of 57 percent last year.
    Today I look forward to the testimony from Social Security 
officials on the efforts to enhance its ability to oversee ALJs 
to ensure consistent and quality decisions. I hope they will 
address the concerns raised yesterday and describe the tools 
Social Security has put in place to train, discipline, and, 
when appropriate, remove ALJs that violate agency policies.
    Now, having said that, I think it is very, very difficult 
to remove someone, and we need to have a very candid 
conversation on what needs to be fixed in order to 
appropriately remove individuals who are just, frankly, not 
doing the job.
    In April of this year, Chairman Lankford and I sent a 
bipartisan letter to Social Security that outlined several 
reforms and recommendations to improve the disability, 
adjudication, and review process to restore confidence in 
Federal disability programs. Earlier this week I sent a letter 
to the U.S. attorney for the Eastern District of Kentucky 
requesting an independent review for prosecution of the 
evidence Social Security had gathered with regard to the 
administrative law judge and a claimant's representative who 
allegedly colluded with fraudulent medical evidence to obtain 
disability benefit awards for thousands of individuals.
    The fact that Eric Kahn is still in a situation where he 
can represent claimants before Social Security in Huntington 
and in Charleston, and anywhere else, I guess, in the Country, 
because he has now opened offices in California, is a disgrace. 
It is an absolute disgrace.
    The American people expect and deserve action. I am 
concerned that justice has been long delayed in this case. 
Administrative actions against the judge and the lawyer have 
bene put on hold pending a possible criminal prosecution. While 
the inspector general has conducted over 130 interviews, 
examined bank and phone records, reviewed decisions, and 
collected thousands of documents to build a case, we have heard 
nothing out of the U.S. attorney in West Virginia. It is long 
past time to prosecute this case and, frankly, it is long past 
time for the administration within Social Security to take 
action against these people. One of them has retired; one of 
them is still processing claims.
    Social Security disability benefits are an important 
lifeline for millions of American taxpayers with disability. It 
is critical that this lifeline is preserved. Our investigation 
has focused on identifying improvements to ensure that only 
those who meet the eligibility guidelines receive benefits so 
that the truly disabled can access this important lifeline and 
the American public can have confidence in the disability 
determinations process.
    Our investigation has also shown that Congress has not 
provided the funding the agency needs to fulfill its mandate to 
effectively monitor program integrity and save taxpayer 
dollars. We know continuing disability reviews, CDRs, as we 
refer to them, yield a return of $9.00 for every dollar spent. 
Common sense suggests to all of us that some people who are 
disabled get better, and there should be an active use of CDRs 
to make sure that those who do get better are not continued on 
the rolls.
    Social Security and the OIG have also established the 
Cooperative Disability Investigations Program to coordinate and 
collaborate on efforts to prevent, detect, and investigate 
fraud in Federal disability programs. Those efforts pay for 
themselves many times over. Yet, for some reason, we here in 
Congress have refused to fully fund the inspector general and 
the agency to carry out its program integrity. If we want 
accountability,--I am going to use the same words that the 
ranking member did--then let's put our money where our mouths 
are and fully fund CDRs.
    I look forward to hearing the testimony on improving the 
disability appeals process and how Congress can support and 
enhance these efforts. Thank you.
    Mr. Mica. [Presiding.] I thank the gentlelady.
    Mr. Lankford?
    There are no further opening statements. Then we will go to 
recognizing our witness.
    Members may have seven days to submit opening statements 
for the record. Without objection, so ordered.
    Our sole witness today is the Honorable Carolyn Colvin. She 
is the Acting Commissioner for Social Security Administration.
    Pursuant to the rules and procedures of our committee, Ms. 
Colvin, this is an investigative panel of Congress and we swear 
in all of our witnesses, so if you will stand and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this committee of Congress is the whole 
truth and nothing but the truth?
    [Witness responds in the affirmative.]
    Mr. Mica. The witness has answered in the affirmative and I 
would like to welcome you.
    Since we only have one witness, we won't hold exactly to 
the five minutes, but if you could try to summarize your 
opening statement and comments. And if you have additional 
information that you would like to be made part of the record, 
you can request through the chair.
    With that, you are welcomed and recognized.

     STATEMENT OF THE HONORABLE CAROLYN W. COLVIN, ACTING 
          COMMISSIONER, SOCIAL SECURITY ADMINISTRATION

    Ms. Colvin. Good morning, Chairman Issa, Ranking Member 
Cummings, members of the committee. Thank you for inviting me 
to discuss the role of administrative law judges, or ALJs, in 
our disability appeals process. My name is Carolyn Colvin and I 
am the Acting Commissioner of the Social Security 
Administration.
    We have nearly 75 years of experience in administering the 
hearings process. Since 1939, the law has required us to hold 
hearings to determine the rights of individuals to Social 
Security benefits. We currently employ just over 1400 full-and 
part-time ALJs who decide hundreds of thousands of disability 
claims each year. The vast majority of all ALJs are 
conscientious, hard-working, and take their responsibility 
seriously.
    Getting the right decision to every person who applies for 
disability benefits is important to the agency, the claimants, 
Congress, and the taxpayer. Those who have earned Social 
Security coverage deserve a decision that is accurate, timely, 
and policy-compliant, whether the decision is an allowance or a 
denial. Toward this end, we have taken steps to comprehensively 
improve our national hearings and appeals process.
    As our budget allowed, we made a large investment in 
modernizing the hearings process and utilized improvements in 
technology. We have developed new methods of capturing 
structured data which provides insight into policy compliance 
in hearing decisions. We have developed new tools that use the 
structured data to provide ALJs real-time access to their 
appeals council remand data and provide them individual 
feedback.
    We collect and then analyze data to identify recurring 
issues in decision-making by performing pre-effectuation 
reviews on a random sample of allowances and post-effectuation 
focus reviews that look at specific issues. By performing these 
reviews as allowed by our regulations, we provide ALJs timely 
guidance on recurring issues in decision-making, consider 
improvements in policies and procedures, and identify training 
opportunities for ALJs and other agency employees. Our ability 
to perform these reviews, though, depends on the funding we 
receive from Congress.
    Our continued focus on quality review initiatives allow us 
to improve the policy compliance of ALJ decisions to ensure 
that individuals who qualify for benefits receive them, and 
that those who do not qualify do not receive benefits.
    Most ALJs who receive feedback welcome the opportunity to 
improve their skills. Let me emphasize that we do not have any 
set allowance or denial rates. We do not because our focus is 
always on producing quality policy-compliant decisions.
    For our hearing process to operate fairly, efficiently, and 
effectively, our ALJs must treat members of the public and 
staff with dignity and respect, adhere to ethical standards and 
agency policy, be proficient at working electronically, and be 
able to handle a high volume workload while maintaining quality 
and issuing policy-compliant decisions. The vast majority of 
our ALJs take seriously their duty to the American public and 
perform their duties accordingly, and I commend and thank them 
for their service.
    We manage our ALJ corps in accordance with the 
Administrative Procedures Act and we ensure the qualified 
decisional independence of our ALJs. The APA additionally 
provides that ALJs are exempt from performance appraisals and 
cannot receive awards based on performance. In compliance with 
the APA, we can and have taken steps to ensure that ALJs who 
refuse to do their jobs properly or who otherwise betray the 
public trust would be held accountable for their actions. 
Despite the good work of the vast majority of our ALJ corps, it 
has been necessary to seek removal or suspension of some ALJs. 
To do this, we have to complete a lengthy administrative 
process that lasts years and can consume significant amounts of 
taxpayer dollars.
    Unlike disciplinary actions for other civil servants, the 
law requires that ALJs receive their full salary and benefits 
until the case is finally decided by the full Merit Systems 
Protection Board, even when the ALJ's conduct makes it 
impossible for the agency to allow the ALJ to continue deciding 
and hearing cases or to interact with the public.
    We welcome your support in advancing our goal of providing 
every person who comes before our agency a timely, quality, and 
policy-compliant decision.
    Again, thank you for the opportunity to appear before you 
today, and I will answer any questions you have.
    [Prepared statement of Ms. Colvin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Thank you, Ms. Colvin. We will first recognize 
for the purpose of questioning Mr. Lankford.
    Mr. Lankford. Ms. Colvin, thanks for being here as well. 
Ranking Member Speier and I sent a letter to your office about 
a month ago or two months ago. It had 11 specific 
recommendations or ideas about how to reform this. It has been 
part of this ongoing conversation now, our fifth hearing 
dealing with this issue. We continue to collect what are the 
ideas that actually solve this problem. We are all very aware 
of the problem. How do we actually solve this? We listed 11 
specific ideas. The letter that we received back from your 
office said this, ``Some recommendations could benefit from 
further discussion of our current business processes, the 
relative advantages and disadvantages of pursuing the suggested 
changes and significant legal considerations. We have to 
discuss these recommendations with your staff.''
    What we want to know is how do we actually start applying 
some of these. I would ask you again, of the 11 recommendations 
that we put forward, I would like to receive a response back to 
Ms. Speier and I that says of the 11, here are those that we 
are already implementing, here are those that we don't think is 
a good idea; rather than, hey, we will talk about this at some 
point if you want to be able to get together. I think it is a 
reasonable request.
    Ms. Colvin. I certainly can respond to you about each of 
the individual recommendations that you set forth. However, I 
did believe that some further conversation would help to 
clarify some of the recommendations. If you feel that you would 
rather not do that----
    Mr. Lankford. No, we are fine with that. We have had 
offline conversations. We don't have to be in front of the 
cameras to be able to have this kind of conversation. What we 
want to see is how do we actually move these into solutions. 
What we have tried to clear up from the beginning in these 
hearings are what are statutory issues you need help with in 
the law. Where do we have a problem in the law that we need to 
fix? Where do you already have statutory authority that we just 
need to help provide a push and accountability to say how do we 
get this done?
    So we have no issue to be able to talk through what is our 
part, what is your part, but we want to see us make progress on 
this.
    Ms. Colvin. We would be very happy to do that, Mr. 
Lankford. We appreciate the assistance of this committee and we 
look forward to working with you.
    Mr. Lankford. Okay. We look forward to getting a chance to 
be able to get together on that.
    Ms. Colvin. All right.
    Mr. Lankford. There are several issues that have come up 
during these conversations. Yesterday's hearing, as Ms. Speier 
mentioned before, was depressing in many ways. It is 
frustrating both to be able to see individuals that would claim 
judicial independence, but they are basically going to create 
their own way. For an ALJ to not have in the medical record in 
front of them that there is a back problem, but they ask 
someone in front of them do you have a limp and they said yes, 
and they give them disability when there is no medical evidence 
of that. Do you have a limp should not qualify for $300,000 of 
lifetime benefits to the taxpayer. And do you have a limp does 
not also say to someone you are not eligible to work in any 
location in our economy, which is clearly within the vocational 
grid requirements.
    When those issues come up, and come up in a focused review, 
our frustration is they are rare, and thankfully that they are 
rare. We have 191 ALJs that have this very high overturn rate, 
and what we are trying to consider is what do you need to help 
in the process to be able to help fix this so that you can 
bring both training that works--because what we heard a lot 
yesterday was, yes, we have training, but it is really training 
on writing better; it is not training on writing and on policy 
and on how to make decisions. All four of the judges agreed the 
training that they received is on writing better opinions 
rather than actually making better decisions on it. So that is 
one aspect of it.
    The second one is when you find someone that needs to be 
removed, what do you need from Congress to be able to clarify 
the law. As you mentioned in your opening statement, the law 
doesn't allow for removal or holding pay or such.
    Ms. Colvin. Let me respond first by saying that we expect 
all of our judges to issue quality policy-compliant decisions.
    Mr. Lankford. Well, we do too.
    Ms. Colvin. We respect their qualified judicial 
independence, but we also know that they are employees of the 
agency, and they are accountable to the agency and to the 
taxpayers. So when we identify that there is a problem through 
our focus reviews, we do in fact provide very timely real-time 
feedback; we provide additional training for those individuals; 
and then if they still do not comply with policy, we move 
forward with taking the appropriate action.
    Mr. Lankford. When you have a focused review, is there any 
sense of setting this person aside to say they are not going to 
hear cases while they are undergoing a focused review that you 
saw problems with, do the training, or are they still taking 
cases at the same time?
    Ms. Colvin. We do not set them aside; we provide them with 
training and work with them to improve those decision-making--
--
    Mr. Lankford. So they are still hearing cases though they 
are still going through training to say we saw problems in your 
focused review, but they are still adding more cases even 
during that time period?
    Ms. Colvin. We are not able to just remove a judge from 
hearing cases because they need additional training. Our 
responsibility is to provide that training first, provide them 
with an opportunity to improve, and then if they still are not 
policy-compliant, we take appropriate action.
    Mr. Lankford. Does that appropriate action include not 
hearing cases at that point?
    Ms. Colvin. It could be. It depends upon what the situation 
is.
    Mr. Lankford. Here is the ongoing problem that we have: you 
have someone that your group has identified to say there are 
some problems here in the way they are deciding cases; they 
don't seem to be following the basic flow of those five 
elements that need to be there. If there is a problem that 
rises to the top on that, they don't need to continue to hear 
more cases through that time period. We did not have them hear 
cases, make sure that they are trained and ready to go so that 
the next time they start hearing cases again they are actually 
following proper procedure that has been outlined by the law 
and by regulations.
    Ms. Colvin. It is not that simple, Mr. Lankford. There is a 
process that we must go through. We do that. We take the 
responsibility of providing correct decisions very seriously 
and we take steps immediately to try to----
    Mr. Lankford. So how long is that process?
    Ms. Colvin. Well, if you talk about the Merit Systems 
Review process, we make a referral because we believe that a 
judge has either improper conduct or is not policy-compliant, 
our experience has been it could be two, three years. It costs 
us a million dollars to remove just one judge. So the process 
is very lengthy and very costly.
    Mr. Lankford. So we have a three-year process for someone 
that there is a very clear problem with.
    Ms. Colvin. It is not our process, Mr. Lankford. We have to 
follow----
    Mr. Lankford. I understand. I am just asking the question 
how do we fix this? Because we have a three year process, 
someone is continuing to hear cases. Approximately $300,000 to 
the taxpayer of every single case that they hear if they choose 
to put them into the system. It continues to roll on the 
taxpayer and we still continue to have a judge that says do you 
have a limp? You qualify for Social Security disability.
    Now, I understand that is an extreme case, but if that 
rises up to that level, which you have a few judges that are at 
that level, how do we protect the taxpayer and the integrity of 
the system so that if someone is coming for disability and an 
ALJ, they are consistent across judges? I know there are 
subjective decisions here, but if you come before one judge, it 
is a 15 percent approval rating; if you come before another 
one, it is a 99 percent approval rating.
    Ms. Colvin. Well, I think that you need to understand that 
we cannot look at one statistic, whether it is an allowance 
rate or a denial rate, to determine whether or not the decision 
was a right decision. There is much more----
    Mr. Lankford. Yes, ma'am, I do understand that.
    I am over time, Mr. Chairman. I apologize for that, but let 
me just say if you are a small community bank, when the 
regulator comes in, he looks at every other community bank and 
how they do loans, and if you are an outlier, you get extra 
attention, because that is the way they are overseeing from the 
FDIC and the OCC. Any outlier number that sits out there, you 
don't have a ``quota,'' but if your numbers are odd compared to 
everybody else around you, you are going to get extra 
inspections. All we are asking is would that occur with Social 
Security in the disability process, that if you have an 
outlier, whether they are on the low side or the high side, 
someone is looking at that, saying why is this number so odd.
    Ms. Colvin. You are aware that we do focused reviews. We 
cannot single a judge out simply because of his allowance rate 
or his denial rate. But if we find that there are problematic 
policy decisions, we can work with that individual for further 
training and ultimately take action, if necessary.
    Mr. Lankford. So is that the law, that you can't single 
them out because of high allowance rates?
    Ms. Colvin. That is the law.
    Mr. Lankford. Okay, then we need to fix that for you, 
because that is trapping it. That is the kind of stuff we are 
talking about. We all see the problem. We need to know what is 
our responsibility and what is yours so we can fix that.
    Ms. Colvin. Mr. Lankford, I think it is important again to 
just emphasize that allowance rate or denial rate does not 
necessarily indicate that the decision that was made is an 
incorrect decision.
    Mr. Lankford. I understand.
    Ms. Colvin. So there are other variables that we have to 
look at.
    Mr. Lankford. By the way, we should probably pass it on to 
the FDIC as well, because they do that same treatment for banks 
and they have the exact same response.
    With that, I yield back.
    Chairman Issa. [Presiding.] I just want to clarify, then we 
will go to the ranking member.
    You are saying that it is the clear, four square of the law 
and you have no ability? You are not saying that it is your 
interpretation, etcetera? You are saying you have absolutely no 
authority under the law to do anything different, or these are 
rules and policies and interpretations of the Social Security 
Administration?
    Ms. Colvin. When you say to do anything different, law has 
been very clear that we have to respect the judicial 
independence, that we cannot look at a judge's allowance rate 
or denial rate as a factor in determining whether or not that 
judge is qualified to do the job that they are doing; that 
there are many other considerations. There is also a process 
involved if we determine that we are going to take action and 
that has to be----
    Chairman Issa. I appreciate that, but the subcommittee 
chairman has done a great job of reviewing this and the only 
thing he didn't hold you responsible for is if you can't 
consider the ALJ wrong and there is a 99 percent reversal, then 
are you looking at the people that were wrong 100 percent of 
the time in their--in other words, if there is a 99 percent 
reversal and there is a 57 percent average, then somebody is 
screwing up 30 percent below and you are not restricted from 
asking whether the previous rejecters 1 or 2 were right or 
wrong, are you?
    Ms. Colvin. If we do a focused review and we identify 
policy problems, we are able to determine whether or not that 
case needs to be placed in our CDR or moved ahead in our CDR 
workload. When we have the resources to do all of our CDRs, 
those cases will automatically be reviewed. But since we don't, 
if we do a focused review and we see that there is a policy 
problem in that area, and that individual may, in fact, have 
been determined to be disabled when, in fact, he was not, it 
was an error, then we could, in fact, move that forward for a 
CDR.
    Chairman Issa. Thank you.
    The ranking member is recognized.
    Mr. Cummings. Let me ask this. I tell you, Commissioner 
Colvin, I am going to ask you some questions about the judges, 
but there are people in my district who are denied the two 
times. They keep the two times denial and then they say they 
are overturned. And in the process they go broke; they have 
nothing to live on. And I am concerned about these four outlier 
judges, but I am also concerned about people like the man that 
had stage 4 prostate cancer that died before he could get 
disability. And I see it over and over again.
    So I am going to ask you some questions about what happens 
in stage 1 and 2. In other words, you have two people, 
apparently, who make a judgment when a case first comes in, is 
that right? There are two stages, right?
    Ms. Colvin. Yes.
    Mr. Cummings. And I also know that a lot of people in 
minority communities don't have doctors; they don't have 
lawyers. So they come in, and as I understand it, and this is 
just based on talking to constituents, they come in. So what 
happens then? They say I am disabled. We are getting the 
impression that these are golden decisions, these first two 
tiers, and I am just wondering what happens there.
    Ms. Colvin. That is an erroneous assumption, and I am glad 
you raised that. When the decisions are made at the DDS level, 
they have not seen the individual. When they get to the ALJ 
level it is almost a new case. First of all, it is generally a 
year or longer before that ALJ hears that case. New evidence 
has developed; the person has the ability to testify about 
their condition, which does not happen at the first two stages; 
they have the ability to bring in expert witnesses to also 
substantiate their findings. In addition, you have additional 
deterioration. If the person has been waiting more than a year 
and has a disability, their medical condition is progressing 
during that time, so many times, by the time the case gets to 
the ALJ, there is new evidence and the person's condition is 
such that it would now make them eligible for disability, where 
a year or two years earlier it may not have. Remember that for 
a very long time we have had cases that are well over a year 
old by the time they get to the hearing level.
    Mr. Cummings. And those are the people, again, who had 
nothing and who continue to suffer with nothing. I know of 
people who had to go and live with relatives, trying to make it 
off of zero. So let me ask you another thing. The chairman 
talked about this issue of over the years people asking, that 
is, people in authority at the commission, telling judges to 
move the cases faster. I didn't hear this testimony, but I am 
sure he did, something about 20 minutes a case. I didn't hear 
that yesterday. I think I was here the whole hearing, but I am 
sure that is accurate. Tell me about that.
    Ms. Colvin. Well, I have no knowledge of that. That would 
not be sanctioned within this organization while I am here. We 
stress the fact that we expect a quality decision, that it has 
to be policy-compliant. Yes, we want a timely decision because, 
just as you mentioned, we have thousands of people waiting for 
benefits to which they have paid into the system and earned. 
But we don't want them to rush through making a decision and 
make the wrong decision. We do quality throughout our process. 
We do a number of reviews prior to pre-effectuation, prior to 
payment, which we had not done before. There has to be a 
sampling. And then, of course, we can do the focused reviews 
that we talk about. So we are always focused on quality.
    I am not going to speak to what happened five or ten years 
ago, but I will tell you that that is unlikely occurring in 
this organization at this time.
    Mr. Cummings. Now, several of the committee hearings have 
discussed continuing disability reviews, called CDRs, which are 
periodic re-evaluations to determine if beneficiaries are still 
disabled or have returned to work and are no longer eligible 
for benefits. These are mandated by law, is that correct?
    Ms. Colvin. That is correct.
    Mr. Cummings. We have learned that CDRs are very cost-
effective, estimated to save the Federal Government on the 
average of $9.00 per CDR. Yet, there is a backlog of 1.3 
million CDRs. What is that about?
    Ms. Colvin. It is about funding. Congress has been 
unwilling to fund the CDRs even though it has been demonstrated 
to be cost-effective. When I was here on my first tour of duty 
in 1994, Congress worked with us and gave us seven years of 
funding that we knew would be sustained and adequate, and we 
were able to totally eliminate the backlog. So if we really 
want to ensure that people are not on the rolls who are not 
supposed to be on the rolls, we need to be able to do the CDRs. 
But we can only do the number that we are funded for.
    This year we are funded to do 510,000 and we will do those. 
Next year, in the President's request, we are expecting to be 
able to do 880,000. But, again, that doesn't count now for the 
ones that are coming due this year, so we will still have a 
backlog.
    It has been demonstrated that when Congress funds us we 
deliver; we can tell you exactly what we can do for the dollars 
that you give us. But we have not been adequately funded for 
this program integrity work.
    The other concern I have is that even though we got an 
increase in our budget this year, the increase is primarily 
program integrity. There was no focus on the direct services 
and the people that are still waiting to get the benefits that 
they deserve, it was only a focus on getting people off the 
rolls who should no longer be there. We need to balance that. 
We need to get people off the rolls who are no longer disabled, 
but we also need to have resources that will allow us to 
expedite these applications that are pending, where people are 
waiting to be served who have earned the benefit and will die 
before they get that benefit because we don't have the 
resources.
    Mr. Cummings. On this subject, yesterday Senator Coburn, 
who I have a phenomenal amount of respect for, said a number of 
things about the CDR situation, and I agree with him. The 
committee invited him and the ranking member of the Committee 
on Homeland Security and Governmental Affairs to provide 
testimony on the findings from his investigation into the 
Social Security Administration adjudication process and 
oversight of ALJs. Senator Coburn stated that he believed a lot 
of CDRs are just a postcard mailed to somebody that says are 
you still disabled. And Senator Coburn then suggested a reform, 
and I just want to know your reaction to this.
    Ms. Colvin. Again, I think----
    Mr. Cummings. Are you familiar with what he said?
    Ms. Colvin. I am very familiar. I don't agree with him.
    Mr. Cummings. Okay.
    Ms. Colvin. We are not able to do medical reviews for every 
single individual and, therefore, we have used a process that 
determines which ones we can mail to, and they answer five 
specific questions, and based on that we are able to determine 
whether or not they need a full medical review. But we validate 
that every year. We take a statistically valid sample, about 
60,000, and we do the full medical review, and in every 
instance so far, over the years, it has proven that the model 
that we use is correct.
    We have to use our resources wisely. It costs us $0.20 to 
do a mailer. I don't know what it costs to do a full medical 
review, but it is costly.
    Mr. Cummings. But let me just tell you what he said. He 
said what needs to happen--and I think you need to consider 
this--I believe is that people who we know are going to be 
permanently disabled and know that the medical science and the 
medical record would show there is not going to be a way for 
them to get into the workplace, those should never have a 
continuing disability review. Hear me now. And I agree with him 
on this. What we should do is re-categorize those who get 
disabilities; ones that should be a short-term, ones that have 
a chance, and then ones that have no chance, and then 
concentrate, but it needs to be a CDR. So, in other words, 
some----
    Ms. Colvin. I think our current model, though, is very 
similar to what Senator Coburn discussed, because we do diary 
them. Our regulations require that we do them every three 
years. But we look at the categories when we do our diary; 
those likely to improve, those not likely to improve. So we are 
certainly are focusing on those likely to improve, and the 
model is such that we are trying to look at those who are more 
likely to improve. And, as I said, normally, when we would be 
doing a CDR every three years if we had the resources anyway. 
We simply have to try to do those that are more likely to fall 
into the category where they are no longer disabled because we 
don't have resources to do every single one.
    Mr. Cummings. Madam Secretary, I have run out of time, 
almost at the same time the previous speaker had, but I just 
want to say this. We want to get this right.
    Ms. Colvin. We do too.
    Mr. Cummings. Yesterday I said something that my mother 
told us years ago. She only had a second grade education, but 
she said you can have motion, commotion, and emotion, and no 
results. The people who suffer are the people who are the 
constituents I talked about a little bit earlier. So we need to 
get this right. These judges, if they are not doing the right 
thing, we want to work with you to get it done. If they don't 
belong there, if they don't want to follow procedures--I talked 
to the chairman yesterday. I said, when these people come in, 
they apparently come in and say they are going to obey certain 
procedures. And if they are not going to do that, I think we 
have to address that. And, by the way, judges, with regard to 
Social Security, they are not the only bad judges. By the way, 
we see them in State courts and other places, too. But, again, 
we are talking about the outliers.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Issa. Most welcome.
    I now ask unanimous consent the statement of Judge J.E. 
Sullivan, U.S. Administrative Law Judge, from June 27, 2013, be 
placed in the record. Without objection, so ordered.
    Chairman Issa. Administrator, this judge is the one who 
gave us the testimony under oath that, in fact, an egg timer 
was part of his training. I presume that you believe that what 
he said under oath is true. Her. I am sorry, that she said is 
true.
    Ms. Colvin. I don't have any reason to question it. I am 
just saying that that is not something that we would sanction.
    Chairman Issa. But you did sanction it. The judge was 
trained in and testified under oath. So I hope you will take 
back the assumption that, unless she lied, the testimony you 
should review and find out how it was sanctioned.
    Ms. Colvin. Did she indicate when that occurred?
    Chairman Issa. You will have a copy of the testimony.
    Mr. Cummings. Mr. Chairman, in fairness, I think she--how 
long have you been there?
    Chairman Issa. She has been there for decades.
    Ms. Colvin. I have been acting for 14 months.
    Chairman Issa. Ma'am, how long have you been part of Social 
Security?
    Ms. Colvin. I have been the acting commissioner for 14 
months.
    Chairman Issa. How long have you been before that?
    Ms. Colvin. I was there under Mike Astrue for two years. 
But, remember, he was the commissioner and he determined----
    Chairman Issa. That is the entire time that you have been 
with Social Security?
    Ms. Colvin. Oh, I was there at Social Security back in 1994 
to 2001.
    Chairman Issa. Okay. So you have been there during decades, 
and there was a relatively small----
    Ms. Colvin. Not decades. I was there six years prior----
    Chairman Issa. Six years, two years, and 14 months.
    Ms. Colvin. Yes.
    Chairman Issa. Okay, so for these 20 years from 1994 that 
are shown here, from 1994--if you put it up on the board--from 
1995 or 1996 fiscal year, where the Congress provided $4 
billion in funding, until let's say 2010, when they provided 
over $10 billion. You keep talking about resources. These are 
decisions Social Security made in disabilities. These CDRs, 
when Congress stopped giving you specific mandates and set-
aside money, but the total amount of money was still going up, 
and, by the way, this was during the Bush Administration, in 
2002, with approximately $5.5 billion, if I am reading the 
numbers right, there were 900,000 CDRs. As the amount rose in 
the coming years, this blue line there is, in fact, the money 
going up and the red is the CDRs going down. That is a choice. 
That is a choice. We did not restrict your ability. We did not 
deny you the ability to do CDRs.
    So during the period of time in which you were there the 
first time, your CDRs were going up like crazy. You had 
earmarked money, an order to do it. The money kept going up. 
When the earmark disappeared, it went down. And, by the way, I 
want to note that this was during the Clinton Administration 
that a great job was done. During the Bush Administration a 
crummy job appears to be done when it came to reviews.
    Ms. Colvin. I wasn't there.
    Chairman Issa. And during the Obama Administration it has 
been going back up.
    The point, though, is that the money is going up. The 
resources are going up at times when it is going up and when it 
is going down. That is a chart that shows no correlation 
between money and your decision to do CDRs, wouldn't you agree?
    Ms. Colvin. No, I would not agree. First of all, I have not 
seen your data, and I would like my actuary to look at it.
    Chairman Issa. It is not my data, it is yours.
    Ms. Colvin. Well, I would like my actuary to look at it and 
see if his interpretation is the same. But, secondly, our CDRs 
and the numbers that we are allowed to do are clearly indicated 
in our budget each year. So when you say we have the 
flexibility to do how many we want, that is not accurate. We 
have identified very specifically how many we are expected to 
do.
    Second----
    Chairman Issa. Okay, well, let's go through----
    Ms. Colvin.--you gave----
    Chairman Issa. Ma'am, this is not the Senate; you can't 
filibuster.
    Ms. Colvin. All right.
    Chairman Issa. The fact is that you are talking about hard 
it is to fire a judge, but what you are missing is a judge that 
rubber-stamps 100 percent of the time, when good faith belief 
is that anything above about 57 percent is probably above 
average and above 85 percent should give you a caution, you can 
save money by putting them on administrative leave and paying 
them to do nothing versus the false positives they are giving.
    Having said that, I am going to ask you just a couple quick 
questions, because I, like the ranking member, see a problem 
and see somebody telling me just give me more money. And I 
don't think you doubt that that blue line is more money that is 
coming in every year under Republicans and Democrats. 
Consistently that line goes up.
    So the real question here is why were you giving awards to 
some of those four people that were in front of us today, 
awards for volume, and, in fact, not checking in any way, 
shape, or form whether or not they were out of the norm in the 
amount of approvals they were giving for disability?
    Ms. Colvin. We do not give awards to judges. I think the--
--
    Chairman Issa. Letters that effectively are awards.
    Ms. Colvin. They are letters that go to offices, but not to 
individual judges. Again, that is something that happened in 
the past; that is not something happening today. In fact, 
letters are going out to offices commending them for their 
quality decisions, not for the number of decisions that they 
make, so a lot has changed, and even Senator Coburn recognized 
that there have been many changes.
    Chairman Issa. Exactly. Once Senator Coburn and 60 Minutes 
made it clear that you were providing benefits to people that 
did not deserve it in large amounts, including, in some cases, 
people who were colluding with the lawyers bringing the cases, 
miraculously, your ALJs are now reversing, aren't they? They 
are, in fact, lowering the amount of claims they give. Are they 
denying people benefits that are entitled to them or are they, 
in fact, more accurate today than they were before light was 
shed on this problem?
    Ms. Colvin. I think it could be a combination of both. I am 
not going to----
    Chairman Issa. Ma'am, you were the commissioner. You have 
been the acting commissioner for 14 months. You have an 
obligation to give me a decision. Are we, in fact, denying 
claims that should be granted in great numbers as a result of 
this reduction?
    Ms. Colvin. I do not believe that we are denying claims in 
great numbers.
    Chairman Issa. Then, by definition, the reduction is a 
reduction to a truer number, and we were falsely giving people 
benefits that were not entitled to them, wouldn't you agree?
    Ms. Colvin. I would not agree.
    Chairman Issa. Ma'am, you know, it is amazing that you want 
to come in here with a problem that up and down the dais we all 
agree is a problem, that there are too many people who are 
getting claims too slowly. But one of the reasons that the 
people who deserve these things are getting them slowly is we 
are clogged with a lot of people who should not get them who 
know that the lottery will give them to them in high numbers.
    Ms. Colvin. I do not agree with that statement or that 
assumption at all.
    Chairman Issa. You know what is amazing? You don't agree 
with it, but you are running an organization that is costing us 
billions of dollars in benefits given to individuals who do not 
deserve it. You tell me you can't fire the ALJs; you tell me 
you can't do it; you tell me the law won't change it----
    Ms. Colvin. I never told you we couldn't fire ALJs.
    Chairman Issa. You said----
    Ms. Colvin. In fact, you know that we have taken action 
against a number of judges. We have had over 15 judges----
    Chairman Issa. We had four yesterday who said things like 
they could see pain.
    Ms. Colvin. You know that there are a lot of actions being 
taken right now. I am not going to discuss actions here that 
will jeopardize a case or litigation that might be occurring, 
but you know that there are a lot of actions right now----
    Chairman Issa. Okay, let me ask you just one last question.
    Ms. Colvin. Yes.
    Chairman Issa. And I appreciate the indulgence of the 
ranking member.
    Do you believe that Congress needs to give greater 
authority, not greater money, greater authority, to fire, to 
reform, to review if you are, in fact, going to represent the 
American people's best interest of their tax dollars?
    Ms. Colvin. I am not prepared to answer that question. I 
think that I would have to look at what the Merit Systems 
Review Board challenges are. I think that perhaps there could 
be some improvements there.
    Chairman Issa. Mine was a much broader question; it was 
actually a soft ball right over the plate. For example, do you 
believe that we should give you the ability to do de novo 
review of judges whose decisions are, in fact, above the norm?
    Ms. Colvin. I don't believe that an allowance rate or a 
denial rate is sufficient to make a decision in that respect.
    Chairman Issa. So, in other words, if somebody is giving 
100 percent approval, you don't think it is reasonable to give 
you the authority to review the review?
    Ms. Colvin. We have the authority to do a review.
    Chairman Issa. You didn't do it.
    Ms. Colvin. We cannot single out a judge, a specific 
judge----
    Chairman Issa. Well, only one judge gets 100 percent. Why 
wouldn't you do it?
    Ms. Colvin. Mr. Issa, we are doing focused reviews on those 
cases where we have identified problems.
    Chairman Issa. I asked you about judges. I asked you about 
authority, and you won't give me an answer.
    Ms. Colvin. We don't have the authority to do that.
    Chairman Issa. You cannot think of one piece of authority 
that Congress could give you, one change that Congress could 
give you that would empower you to protect the taxpayer better?
    Ms. Colvin. I think that we need to respect the fact that 
there has to be qualified judicial independence, but we also 
have to identify ways to----
    Chairman Issa. Ma'am, I asked you a question and I just 
want the answer to the question. You cannot, here today, if I 
hear you correctly, identify one area of authority or 
flexibility--not money; authority or flexibility--that would 
enhance your ability to protect the American people's taxpayer 
dollars?
    Ms. Colvin. I would be very happy to give you a thoughtful 
response at a later time on that.
    Chairman Issa. Ma'am, I will look forward, I will keep the 
record open for days or weeks to get your thoughtful response 
on congressional action that would give you greater flexibility 
or authority that would help protect the American taxpayer.
    Ms. Colvin. I would be very happy to look at that, Mr. 
Issa.
    Chairman Issa. I thank the gentlelady.
    We next go to Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I thank you, Acting Commissioner Colvin. Thank you for 
coming today and I certainly thank you for service in this 
hugely important work done by the Social Security 
Administration.
    And I am concerned. I am concerned certainly about outliers 
and judges who act badly. I share the ranking member's 
statement that there are bad judges everywhere and in every 
court that we ought to worry about.
    But I am mostly concerned this morning about making policy 
decisions based on statistics that may be skewed and 
perceptions that may be incorrectly made on anecdotes. I think 
it is a mistake to make policy decisions based on these things. 
Certainly, we heard from four judges who may very well fit in 
the category of bad ALJs. We heard Mr. Lankford, who 
unfortunately is not here right now, talk about 191 ALJs out of 
1,400 who are way above average in allowing claims.
    And one thing I wanted to touch on there was, and you said 
this, that current law prohibits you from reviewing judges 
based on their allowance rates or their denial rates alone. 
That may make sense. But one thing I wonder is, what about the 
judges who are denying claims way too much? I hear this. I know 
lawyers that are advocates and non-lawyers who are advocates 
for Social Security disability claimants who say they are 
denying more than ever these days. People who with legitimate 
injuries, disabilities, are not getting their claims allowed.
    And so there is anecdotal evidence on both sides of the 
ledger here. I wanted to ask you about that. First of all, do 
you agree that there are 191 ALJs out of 1,400 that are 
granting too many, allowing too many claims?
    Ms. Colvin. I don't have the exact number of the outliers, 
but I will acknowledge that we have had outliers. But if you 
notice, we have had a tremendous decrease in the number of 
outlier judges over the last several years.
    Mr. Cartwright. So let's touch on the outliers that are 
granting too few appeals, who are denying claims. First of all, 
I think it is something we could all agree on, that in a 
universe of 1,400 ALJs and all of the thousands and thousands 
of disability claims that come in, that there are some 
legitimate disability claims that get denied. And those appeals 
are denied. Would I be correct in that?
    Ms. Colvin. You are correct. In SSA we really focus on the 
right decision, a quality decision. I don't focus much on 
whether it is a denial or an allowance, but is it the right 
decision. And certainly, if we have someone who we believe that 
their number of denials is too high, then that is going to be a 
situation that we are going to be as concerned about as if we 
thought that they were out of the norm for the number of 
allowances that were made. Because people have a right to know 
that they are going to get a decision that is a quality 
decision and that is policy-compliant and also timely.
    Mr. Cartwright. So we know that there are going to be some 
judges out there that are just not being fair and are just not 
allowing claims that should be allowed, where we have 
legitimate claims where people have no money coming in because 
they can't work, they are disabled, and still they lose their 
case. And my question is, as much as we talk about trying to 
figure out ways to get rid of bad judges who grant too many 
claims, don't we also want to look at ways to get rid of judges 
who deny too many claims? Would that be a fair statement?
    Ms. Colvin. Sir, I think what you are saying is exactly 
what I said. We want to make sure we get it right, that we get 
the right decision. We have increased our data collection and 
our data analysis so that we can look at decisions to see where 
there are problematic policy decisions and we can provide 
timely feedback to the judges.
    Mr. Cartwright. Commissioner Colvin, let me ask you this. 
You have been paying attention this week. How about those bad 
judges that have been denying too many claims? Were any of them 
invited to testify in front of Congress this week? Who were 
denying people legitimate claims?
    Ms. Colvin. An interesting question, sir, no, they were 
not.
    Mr. Cartwright. They were not invited?
    Ms. Colvin. They were not invited.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Chairman Issa. If the gentleman would take note, there was 
no minority witness. I certainly hope you considered inviting 
the administrative law judges, the one who was below 15 percent 
allowance. I guess not.
    With that, we go to the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman, Ms. Colvin.
    So you have 1,400 of these administrative law judges. And 
you have 191, I guess, that fell into one of these categories. 
Pretty high overturn ratings. Then you have some that the other 
side has spoken to, I guess were a few that have gone the other 
way.
    How many of these judges have been put on administrative 
leave since you have been there?
    Ms. Colvin. I don't have that exact number.
    Mr. Mica. Two? Five? Ten? Twenty?
    Ms. Colvin. Are you saying in the last year?
    Mr. Mica. Just the total, yes, the 13 months that you have 
been there.
    Ms. Colvin. I will give that to you shortly.
    Mr. Mica. Will somebody from the back provide that 
information?
    Ms. Colvin. Yes. I will be able to give that to you before 
we leave here today.
    But I will say that since I have been the Acting 
Commissioner, we have some 25 percent decrease, we had outliers 
that were 25 percent, we are down now to less than 3 percent.
    Mr. Mica. I want to know how many we have put on 
administrative leave in the 13 months. The 13 months you have 
been acting kind of disturbs me, because it is a pretty 
important position. You have pretty important responsibilities. 
It is one of the biggest agencies in government. And certainly 
with the discretion in cases like this to grant disability 
claims.
    What is the problem with your getting confirmed. Are you 
before the Senate, are you approved by the Senate?
    Ms. Colvin. No, sir.
    Mr. Mica. Have you been submitted by the President to the 
Senate?
    Ms. Colvin. No.
    Mr. Mica. So you are just sort of acting in limbo?
    Ms. Colvin. I am running the agency, sir.
    Mr. Mica. That concerns me, because I have been in Congress 
a while. It is difficult enough when you have somebody who is 
confirmed, let alone someone who is in an acting position, to 
get things done. And that is to your detriment to administer 
one of the most important agencies in government.
    These administrative law judges are appointed by whom?
    Ms. Colvin. They are selected through the civil service 
process. So the Deputy Commissioner, Glenn Sklar, who is over 
the ALJ operation, would be the selecting officer.
    Mr. Mica. Does OMB participate?
    Ms. Colvin. No.
    Mr. Mica. They do not.
    Ms. Colvin. No.
    Mr. Mica. And then they are given lifetime tenure?
    Ms. Colvin. Yes that is not an SSA decision.
    Mr. Mica. And that is set by law?
    Ms. Colvin. Yes.
    Mr. Mica. I think that is something else we need to change.
    I chaired the Civil Service for four years under this 
committee.
    Ms. Colvin. Mr. Mica, you had asked me about the number.
    Mr. Mica. Yes, put on administrative leave.
    Ms. Colvin. We have had one removal and two suspensions in 
2014. In this year, 2014, we have had one removal and two 
suspensions. We have had a total of 15 removals since 2007.
    Mr. Mica. It is very difficult to get rid of someone.
    Ms. Colvin. Yes. It is very complex.
    Mr. Mica. And as I started to say, I chaired Civil Service 
for four years. I found it is almost impossible to get rid of 
anyone. But they can be removed by you and put on 
administrative leave, is that correct?
    Ms. Colvin. And we have many actions pending.
    Mr. Mica. How many actions pending do you have? Can you let 
the committee know on that?
    Ms. Colvin. Yes, I am going to do that.
    Mr. Mica. Do you have a fraud division?
    Ms. Colvin. Yes, we have, well, not a fraud division, our 
Office of Inspector General is responsible for fraud 
investigations. Our front line employees, most of our 
referrals, last year we made over 20,000.
    Mr. Mica. How many referrals?
    Ms. Colvin. Last year we made over 22,000 disability fraud 
referrals.
    Mr. Mica. How many of those were pursued to a conviction or 
to denying disability?
    Ms. Colvin. I think there were only 500. That is one of our 
challenges.
    Mr. Mica. So 500 out of 20,000 referrals?
    Ms. Colvin. Yes.
    Mr. Mica. Doesn't sound like a very good batting average.
    Do you need more resources?
    Ms. Colvin. Now, the Office of Inspector General is 
responsible for the fraud investigations. And of course, 
resources are always helpful. This year we increased.
    Mr. Mica. How many people are in the Inspector General's 
office?
    Ms. Colvin. That is not under my authority, sir.
    Mr. Mica. Could somebody answer that? Maybe we can get that 
in the record, too. We want to make certain that you have the 
resources to go after people. Twenty thousand and 500 successes 
doesn't sound like a good batting average to me.
    Ms. Colvin. Well, one of the things I would like to see 
increase would be the number of continuing disability 
investigation units that we have.
    Mr. Mica. How many do you have now?
    Ms. Colvin. We have 25. I am increasing the number this 
year to 32. But again, it is based on funding.
    Mr. Mica. After this hearing, do you think you could show 
leadership an attempt to end the factory-like appeals process 
that has been demonstrated here the last couple of days?
    Ms. Colvin. I think we have already ended it, Mr. Mica. I 
think that is something that was occurring, but I think if you 
look at the fact that we have reduced the number of cases that 
a judge can hear during the year, we have capped that. We have 
the reviews in place. We have the tool of how am I doing.
    Mr. Mica. How about suspending agency production goals 
until the agency----
    Ms. Colvin. We don't have agency production goals.
    Mr. Mica. Well, it appears that again, that system, even 
though you may not have a formal system, is in place.
    Ms. Colvin. Sir, we are a production agency, so yes, we 
look at our budget and we determine what we think we can do 
based on the budget.
    Mr. Mica. Yes, you have target goals.
    Ms. Colvin. We have target goals in every aspect of what we 
do, yes.
    Mr. Mica. Finally, who made the decision to allow, 
yesterday we had some of the judges, you don't have to be on 
the planet too long to know that what's his name, Judge 
Krasfur, shouldn't really be practicing. But you did a focused 
review in 2011, he was put on administrative leave and then put 
back on the job, is that correct? Are you familiar with that?
    Ms. Colvin. I don't know the details of his case.
    Mr. Mica. Can you get us for the record who, again, 
overrode the decision on the administrative leave? Then he came 
back, now he is on administrative leave. Because somebody needs 
to be held accountable for allowing someone like that to 
continue to serve in an important position like administrative 
law judge.
    Thank you. I yield back.
    Chairman Issa. Thank you. The gentlelady from Illinois is 
recognized.
    Ms. Kelly. Thank you, Mr. Chair.
    The Social Security Disability program has long been a 
safety net for Americans whose disability prevents them from 
maintaining their employment. The program is an earned benefit 
in that workers must meet eligibility requirements for both 
insured status and for impairment.
    Would you explain what is required to attain insured 
status?
    Ms. Colvin. What is required?
    Ms. Kelly. Yes.
    Ms. Colvin. Sufficient earnings for sufficient quarters to 
be able to apply to be eligible for the benefit. And so 
generally, if a person has, I think, what is the number, is it 
10? Yes, 10 years of work, depending upon age, then they would 
be eligible for disability. It would be, as I said, 10 years of 
work experience, and then SSI is a means-tested program. So 
they also would have to meet the income requirements.
    Ms. Kelly. If the applicant meets these standards, he or 
she must also provide evidence that a severe impairment 
prevents him from performing substantial work. Can you 
elaborate on the criteria for meeting this standard?
    Ms. Colvin. The process is very complex. It means that the 
individual is severely disabled, unable to perform prior work 
or any work within the job market. And so there are different 
variables that would go into that. I would be happy to have 
staff brief you on the details, because I think you need a 
little bit more information than I can give you right here.
    Ms. Kelly. Okay. Our aim is to provide benefits to those in 
their period of need, with the ultimate goal of returning 
Americans to employment when and if circumstances allow. How 
does the agency evaluate the readiness of one to return to work 
and are there programs that encourage re-entry into the 
workforce?
    Ms. Colvin. Yes, we do the CDRs every three years, which 
are mandated. At that time, we determined whether or not the 
person has improved to the point that they now are able to 
return to work. We also have had a number of demonstration 
programs to identify what types of interventions might be 
necessary to help people to get back to work. You may recall 
that we have the Ticket to Work, which helps individuals to 
find work and provides some of the support services that they 
need in order to get back into the job market.
    I will tell you, however, that by the time someone comes 
onto our rolls, the majority of them are severely disabled and 
they are not going to return to work, although we do have a 
small percentage that return to work.
    Ms. Kelly. Yesterday our committee held a hearing with the 
four judges, as you know, who have approved thousands of 
benefits, thousands of benefits costing millions of dollars. 
And it makes me uncomfortable that we are not talking about 
people, instead, the decision is all about allowances and 
denials like they are widgets. Are these widgets, or are these 
people with unique stories, facts and circumstances that judges 
have to understand and apply to the law?
    Ms. Colvin. I will tell you that for me, every number is a 
real person, and that is the one thing I emphasize to staff. So 
I am as interested in a person who is denied who should not 
have been as I am in someone who was allowed who should not 
have been. So for me it is quality, quality, quality. I am 
always focused on, are we making the right decision. And I say 
that we will not sacrifice quality for quantity. So you will 
see that in many instances, our numbers are going up, our 
waiting times are going up, because we are giving the attention 
to the cases that I believe needs to be given.
    Ms. Kelly. How many more judges would you feel you need so 
that the waiting time is better?
    Ms. Colvin. I just authorized ODAR to hire 200 new judges 
this year. I don't have a figure on how many I would need to do 
all the backlog. But only a judge can hear a case, so if I 
don't have judges, I can't hear a case. I would be happy to try 
to provide information relative to what the ultimate quorum 
would need to be. But we are trying to keep it around 1,500. 
Our attrition rate is high, because we have senior staff.
    Ms. Kelly. Thank you. I yield back, Mr. Chairman.
    Mr. Cummings. I wish the Chairman was still here. He had 
said something about while you were at Social Security, that 
you promoted certain policy. I don't think you had the chance 
to answer that.
    Ms. Colvin. Well, I think he was in the wrong. He was 
inaccurate. I have never promoted the policy that we would just 
ramp out cases. Even when I was here before, we were very 
focused on the quality. The agency has made tremendous progress 
in being able to hold judges accountable. Because at one time 
they said we couldn't hold a judge accountable for even coming 
to work or on the number of cases that they were doing or the 
quality. So there has been tremendous progress made.
    But when I was here, I was primarily involved in 
operations, which is our field office operations, from 1998 to 
2001. Since I have returned, we have been focusing on quality 
throughout the agency, particularly with the disability cases.
    Mr. Cummings. Thank you.
    Mr. Gosar. [Presiding] I am going to recognize myself now 
for questions.
    Could you identify your staff that is here with you today? 
Raise your hands.
    Ms. Colvin. Do you want them to introduce themselves?
    Mr. Gosar. No, I just want to see who is all here, I want 
to see them nice and high. Can I see them, please?
    [Show of hands.]
    Mr. Gosar. Ms. Colvin, did you watch yesterday?
    Ms. Colvin. Yes, I did, some of it, but your streaming was 
not good.
    Mr. Gosar. How about staff? Did you watch that? Were you 
disturbed?
    Ms. Colvin. Absolutely.
    Mr. Gosar. I am from western Arizona. The people back home 
were seriously disturbed.
    Ms. Colvin. So were we.
    Mr. Gosar. So when we were talking about quality and you 
talked about outliers, do we have a problem? I need to hear you 
say that we have a problem.
    Ms. Colvin. We have had a problem. It is getting better. As 
I mentioned, we have had a 20 percent reduction in the number 
of outliers. We are now down to 3 percent of our judges who are 
outliers.
    Mr. Gosar. So I am going to interrupt you, I need to see 
something more.
    Ms. Colvin. What do you want?
    Mr. Gosar. What kind of time table are we dealing with? Are 
we talking to infinity and beyond, or do we have a two-year 
problem, looking at enough money to fulfill what we are looking 
at?
    Ms. Colvin. I am sorry, your question is not clear.
    Mr. Gosar. Trust fund, when does it run out.
    Ms. Colvin. In 2016, the trust fund will be depleted.
    Mr. Gosar. Mayday, mayday, right?
    Ms. Colvin. The reserves will have been depleted. We will 
still have funds coming in that will allow us to provide 75 
percent of the benefit.
    Mr. Gosar. But 75 percent doesn't cut it for folks that 
actually need it.
    Ms. Colvin. Absolutely.
    Mr. Gosar. So to me it seems like a CEO is going to be 
talking about metrics, about timetables. I want to look at 
quality, too. I am a dentist impersonating a politician, so a 
lot of this means a lot to me in regards to that.
    Talking about yesterday, we have to get back to building 
blocks before we can reconstruct stuff. So when I was listening 
yesterday, I was mortified that I actually saw judges claiming 
that they were doing bench reviews. You said that it is almost 
like a new case study by the time they get there.
    So it would remand that there would be very few bench 
decisions. Would you agree with that?
    Ms. Colvin. And in fact, if you look at our data, you will 
see that there are very few being done any more. I can provide 
you with a chart.
    Mr. Gosar. I saw four right there that, boy, I tell you 
what, there needs to be a clean sweep right there. I saw four 
judges here that although they didn't have a medical license, 
they weren't using expert testimony.
    Ms. Colvin. There should still be some situations where you 
have on the case review, I mean, reviews without a hearing or 
decisions without a hearing, on the record reviews. But I am 
saying, the number that occur has significantly decreased.
    Mr. Gosar. I would like to see those numbers.
    Ms. Colvin. All right, we would be happy to provide them.
    Mr. Gosar. I like validation.
    Ms. Colvin. We have it, we will be happy to provide it.
    Mr. Gosar. I would love to see that validation.
    Do you need more information from seeing those four judges 
yesterday to take action?
    Ms. Colvin. No, because most of what you presented 
yesterday were our documents that we provided to you. So what 
they provided is not a surprise.
    Mr. Gosar. So why aren't they all on suspension?
    Ms. Colvin. I don't know what their individual situations 
are. But as I have said to you, I am not going to interfere 
with any cases, whether it is a criminal action or whether it 
is an action that could then be affected because of my speaking 
out publicly. But we would be very happy to come to you and 
talk to you privately or the committee about all the things 
that we are doing in this area.
    Mr. Gosar. I think America needs to hear it. They don't 
need to hear it from just behind closed doors. I think they 
need to hear about it all the way across the board.
    Ms. Colvin. There are privacy issues, and we also do not 
want to jeopardize criminal investigations by giving 
information out in public. These are not going to be cases that 
are not going to be litigated.
    Mr. Gosar. Well, I think a good step is to admonish them by 
not allowing them to hear any cases. If you are talking, you 
talked earlier about quality. Right there is a good faith 
exercise in making sure that we have quality instead of 
quantity, wouldn't you say? Putting them on administrative 
leave and do you not have that ability to do that?
    Ms. Colvin. I would be happy to talk to you later about 
individual cases.
    Mr. Gosar. Let me ask you a question. Do you not have the 
authority to put those individuals that we saw yesterday on 
immediate administrative leave? Yes or no?
    Ms. Colvin. I have the authority to put individuals on 
administrative leave, yes.
    Mr. Gosar. Have you put those four on administrative leave?
    Ms. Colvin. No, I have not.
    Mr. Gosar. Why not?
    Ms. Colvin. I think there has to be considerable thought 
and there are actions pending.
    Mr. Gosar. Oh, my goodness gracious. You didn't see that 
yesterday with those four individuals? We had a guy that was 
interpreting his own interpretation of what disability was. We 
had a gentleman that over here has a conflict of interest. We 
had gentlemen saying they knew more about medicine than a 
medical doctor. Come on, now.
    Ms. Colvin. You don't want to hear my responses, because 
you are not listening. Some of them are already out; those 
individuals that spoke action has already been taken.
    Mr. Gosar. So why not all of them? I mean, I think across 
the dais, we are all mortified by the four gentlemen who sat 
here yesterday.
    Ms. Colvin. We were too.
    Mr. Gosar. Then why aren't they all on administrative 
leave?
    Ms. Colvin. I have given you the answer I can give you, 
sir.
    Mr. Gosar. You said a few.
    Ms. Colvin. I have said that we----
    Mr. Gosar. You actually have the jurisdiction, you as the 
CEO for the Administration, the Social Security Administration, 
witnessed what we saw as despicable responses from four judges. 
And you have the ability, which is what you just told me, that 
you could put them on administrative leave. And yet all four of 
them are not on administrative leave?
    Ms. Colvin. My answer is the same. I am not going to 
discuss personnel actions here in this forum.
    Mr. Gosar. That is the problem we have here right now, is 
accountability and actually having a line item, a direction, a 
path of holding people accountable. That is what is wrong.
    Ms. Colvin. I would be happy to talk to you privately. I am 
not going to have that discussion here.
    Mr. Gosar. Well, if you can't tell America, that is a 
disgrace, especially after what they saw from those four judges 
yesterday.
    Ms. Colvin. I am not going to jeopardize the actions 
because you feel I have not handled things appropriately. That 
is your opinion.
    Mr. Gosar. I think America's gut opinion, what they saw 
yesterday from four judges was disgraceful, absolutely 
disgraceful. There is no reason one of those gentleman should 
be able to hear one case, whatsoever. And putting them on 
administrative leave does not deter any judicial proceedings at 
all. That is the problem we have here.
    We have less than two years, less than two years.
    You had five minutes over time.
    Mr. Cummings. I had five minutes because the gentleman who 
spoke first----
    Mr. Gosar. So now everybody is taking five.
    Mr. Cummings. No, no, no, that is not true.
    Mr. Gosar. I have been sitting down there watching it.
    Mr. Cummings. The first questioner on your side had 10 
minutes.
    Mr. Gosar. The gentleman is out of order. Reclaiming my 
time.
    I would love to see what you are looking at, as far as an 
orchestrated plan to make sure this is solvent. Not only with 
the ALJs, but also I want to make sure we are reviewing the 
people who are on the first and second level aspects. Because 
those are coordinated aspects there.
    I have one last question for you. Is there any reason why 
somebody wouldn't have the ability to work? I mean, when you 
look at a claim, for perpetuity, there would be very few cases, 
would you not agree, that somebody could actually benefit from 
doing an alternative job?
    Ms. Colvin. I have no idea what your question is designed 
to get at.
    Mr. Gosar. I am talking about permanent disability. Isn't 
there an opportunity or a job that somebody with a disability 
can actually do?
    Ms. Colvin. I am not a physician, but we apply the policy 
and it states very clearly that if the individual is not able 
to perform prior work or any work in the job market, then they 
are disabled.
    Mr. Gosar. Partially or full?
    Ms. Colvin. Full.
    Mr. Gosar. So it doesn't matter if you had a back injury 
and you are out chopping wood?
    Ms. Colvin. You have the law, you can take a look at it.
    Mr. Gosar. The Chairman actually asked, were there 
opportunities, I think Mr. Mica also said, are there 
opportunities that we can change in the law to make this more 
solvent and better for you to orchestrate a solvent plan.
    So with that, who is the next person? Ms. Speier?
    Ms. Speier. Mr. Chairman, thank you.
    Mr. Chairman, let me just say for the record that it is 
very important for us to not jeopardize the disciplinary 
actions--he is not listening to me--the disciplinary actions 
that are ongoing within the Social Security Administration. And 
the Social Security Administration should not be in a situation 
where they are tipping their hand as to what strategy they are 
using relative to pursuing the actions against those judges. So 
I think that is very important, for us not to thwart their 
efforts in getting a just decision in the end. That may be why 
Ms. Colvin has not been willing to respond to your questions.
    But having said that, I think that there are lots of areas 
that need to be fixed. And I don't think this will be a first 
visit here, Ms. Colvin, or your last. I know it is maybe your 
first, but it won't be your last.
    Let me ask a couple of questions as it relates to 
Huntington. I had a whistleblower in my office yesterday who 
described continued retaliation at the Huntington, West 
Virginia office. So my question to you is, what is the status 
of the managers who retaliated against whistleblowers by hiring 
private investigators?
    Ms. Colvin. You are aware that Huntington is an open case, 
but we removed the ALJ, Andrus I think his name was.
    Ms. Speier. I know all about that. But there was also an 
investigator that was hired to watch one of your staff that was 
working one day at home, and trying to bring some action 
against this particular individual, because this individual had 
been a whistleblower.
    Ms. Colvin. May I get back to you?
    Ms. Speier. You certainly can. I would appreciate that.
    Ms. Colvin. Okay.
    Ms. Speier. So in Huntington, you have a claims 
representative who is clearly implicated in his relationship 
with Judge Daugherty and bank statements and documents are very 
persuasive. Now, the fact that the U.S. Attorney has not taken 
action yet does not preclude you from taking administrative 
action. Is that correct?
    Ms. Colvin. I am not sure of that, Ms. Speier, I would need 
to check that.
    Ms. Speier. Well, that is pretty fundamental.
    Ms. Colvin. Normally when my General Counsel gets involved 
and it is a criminal investigation, I sort of take a back seat 
until we determine exactly what is going to happen there, so 
that we don't do anything that is going to interfere with that 
criminal investigation. So I wouldn't be prepared to tell you 
that now, but I would be very happy to come back and talk to 
you and bring the General Counsel.
    Ms. Speier. All right. I think it is important, where you 
have a U.S. Attorney who appears not to be taking action, you 
have powers to take administrative action and administrative 
action should be taken.
    Ms. Colvin. We have not given up on expecting that we are 
going to get some criminal prosecutions there.
    Mr. Speier. I want you to go back with your staff and 
determine whether or not, while there is still something 
pending, whether or not you can take administrative action. 
Eric Kahn should not be allowed to continue to represent 
claimants. And as I understand now, he has opened an office in 
California as well.
    Ms. Colvin. I hear you. I will take a look at that and I 
will get back to you on that, Ms. Speiers.
    Ms. Speiers. All right. The issue of a lifetime term is one 
that I think really needs to be addressed. We have a workers 
compensation system in California, it has a very similar 
function to the Social Security disability process on the 
Federal level. These terms are not for life. And I don't know 
the history for giving these judges terms for life, but I think 
we have to look into it. I for one believe that we should look 
at giving them set terms. I think you are going to see greater 
accountability over a period of time.
    My time is almost up, but I would like to just ask you one 
other question, if I could. Is there anything else that the 
agency can do about Eric Kahn separate from the criminal 
prosecution?
    Ms. Colvin. I would have to get back to you on that. 
Because as I said, I have been deferring any action that I 
would think necessary until such time as I know what is 
happening with the criminal action. I understand that we have 
begun to move forward with the administrative process.
    Ms. Speier. All right, so you can act independently.
    Ms. Colvin. Yes.
    Ms. Speier. This has been going on for how many years?
    Ms. Colvin. A while. I don't have the exact number of 
years, I am sorry.
    Ms. Speier. It has been at least five years, correct?
    Ms. Colvin. I understand it has been three.
    Ms. Speier. Three years.
    Ms. Colvin. Still, three years too long.
    Ms. Speier. And he is still representing claimants. All 
right, my time is expired.
    Mr. Gosar. The gentleman from Tennessee, Mr. Duncan, is 
recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    Commissioner, on 60 Minutes last year the Vice President of 
the Association of Administrative Law Judges said this: ``If 
the American public knew what was going on in our system, half 
would be outraged and the other half would apply for 
benefits.'' What is your response to that?
    Ms. Colvin. I don't know what they were referencing. We 
know that we have many well-deserving individuals who are on 
our rolls, that we take every effort to make sure that people 
who are not eligible did not get on the rolls. I am not sure 
what they were referencing, and they have never shared their 
thinking with me.
    Mr. Duncan. Let me ask you this. What percentage, I know 
the rate of approvals has gone down in the last few years, 
since more attention is being called to this, but what 
percentage of cases are being decided without a hearing? Do you 
have that?
    Ms. Colvin. Yes, I can give you that number, not this 
second, but I can give that to you because I have a chart here.
    Mr. Duncan. One of these judges yesterday had approved 
almost 7,000 without a hearing. I just wondered. And without 
asking you any specific names, have you referred any judges or 
lawyers to the Justice Department for possible criminal 
prosecution?
    Ms. Colvin. There are personnel actions that are being 
undertaken in some instances. As I said, I think it might be 
desirable to try to give this committee or those who are 
interested a private discussion of all the things we are doing, 
so you can see that we are trying to address this 
comprehensively.
    Mr. Duncan. I know you are trying to do some things in the 
Social Security Administration. But are you also working with 
the Justice Department on this?
    Ms. Colvin. Absolutely.
    Mr. Duncan. All right. And let me ask you this. You are 
reviewing and have reviewed the judges to determine the number 
of outliers. I remember several years ago seeing another report 
on 60 Minutes that told about a region or a section in Arkansas 
where children were being told that it was easy to get what 
they called crazy money from the Social Security 
Administration, and were being taught to fake mental illness 
and so forth.
    Are you also looking at particular offices or regions that 
are having higher approval rates than other regions? Do you 
look at that also?
    Ms. Colvin. As we look at judges, we would have to look at 
offices. So yes, we know where the high approval rates are 
occurring.
    Mr. Duncan. And are there any particular offices or regions 
that have extremely high approval ratings or disapproval 
ratings at this time?
    Ms. Colvin. I don't think that there is any office that is 
unique, where it is much greater than elsewhere. As I mentioned 
before, the number of outlier judges is now down by 20 percent 
to 3 percent of the entire ALJ corps. So we are still 
addressing that, still working on that.
    Mr. Duncan. Where it says 19.4 million people are drawing 
benefits from your two major programs right now, is that 
correct?
    Ms. Colvin. You mean the current number of recipients?
    Mr. Duncan. Right.
    Ms. Colvin. Well, we have 16 million beneficiaries. I don't 
know how many for disabled.
    Mr. Duncan. This is in our committee information, it says 
19.4 million.
    Ms. Colvin. It is 16 million.
    Mr. Duncan. And it says that 3.4 million were approved 
between 2005 and 2013.
    Ms. Colvin. I don't have that data with me. I can certainly 
take a look at that. I don't have the data by year.
    Mr. Duncan. What do you think, is there anything that you 
feel needs to be done that you don't feel you have the 
authority to do at this point that Congress can help you with?
    Ms. Colvin. I am taking a look at that now, Mr. Duncan. I 
have the letter that came from the committee with 
recommendations. I agreed to go back and look at that more 
thoroughly. I wanted to have further discussion with staff, and 
get some clarification. But I think we will go ahead and just 
respond, and then if we need more clarification later, we will 
do that.
    But we do want to work with the committee. We want to try 
to identify the kinds of things that we think might be helpful 
to us.
    The biggest challenge is the fact that with the qualified 
judicial independence, we have to be respectful of that. We 
cannot single judges out because of their allowance rate. So we 
have to try to get to those from another angle. And then the 
ability to remove a judge is very difficult and very complex. 
We have to work with the Merit Systems Review Board.
    So as we work with those things, if we think there is 
anything where Congress might be helpful, we will come back and 
talk with you.
    Mr. Duncan. Well, one last comment I will make is, I was a 
judge for seven and a half years before I came to Congress. The 
lifetime terms that Ms. Speier just mentioned, she didn't know 
what was behind that, those were started many years ago when 
there were far fewer lawyers. And the judges were lower paid 
than they are now. What you have now, you have really too many 
lawyers and you have lawyers jumping at a chance to become 
administrative law judges or federal judges of any type. You 
just really don't need these lifetime terms any more. We should 
work on that and end the lifetime terms for all the judges we 
possibly can.
    Thank you, Mr. Chairman.
    Mr. Gosar. I thank the gentleman.
    The gentleman from Michigan, Mr. Walberg, is recognized.
    Mr. Walberg. Thank you, Mr. Chairman.
    I am pleased to yield my time to the Chairman.
    Mr. Gosar. Thank you very much.
    Ms. Colvin, do hearing offices have productivity goals?
    Ms. Colvin. I am not aware that we have specific 
productivity goals. We have overall national goals.
    Mr. Gosar. What are they based on?
    Ms. Colvin. Our budget and the number of cases we believe 
we can do with the budget that we are going to be allocated. 
And that is why we were able to hire, or had funding for the 
200 judges that we are going to be hiring this year.
    Mr. Gosar. Are you aware that the law requires ALJs to 
consider the claimant's entire case record prior to rendering a 
decision?
    Ms. Colvin. Absolutely.
    Mr. Gosar. Isn't that an access point for determining that 
they can be put on administrative leave?
    Ms. Colvin. I don't believe so. I don't think that one 
thing would be the basis.
    Mr. Gosar. The requirement for law. Are you aware that 
until 2011, the requirement that ALJs consider the entire case 
record before reaching a decision was essentially meaningless 
before the agency did not even monitor, much less ensure that 
the decisions were policy compliant?
    Ms. Colvin. I can't speak to that. I am not aware of that 
statement.
    Mr. Gosar. Frank Cristaudo was the Chief ALJ from 2006 to 
2010. During this time period, hundreds of ALJs were approving 
nearly all claimants of benefits. When asked in his transcribed 
interview whether he was ever concerned that one of his judges 
was allowing too many people onto the program, he said no. 
Given the data that the committee has presented, do you find 
that stunning?
    Ms. Colvin. Do I find what stunning?
    Mr. Gosar. That almost everybody was placed on the rolls.
    Ms. Colvin. I don't know how to answer that. Do I find it 
stunning that almost everybody was placed on the rolls?
    Mr. Gosar. Yes.
    Ms. Colvin. I don't know that I have any data to support 
that statement from--who was that, Judge Cristaudo?
    Mr. Gosar. Do you know who Judge Cristaudo was?
    Ms. Colvin. Of course I do, yes. I would have to see the 
data.
    Mr. Gosar. Are you stunned that he wasn't aware of any 
judges that weren't giving overwhelming approval ratings?
    Ms. Colvin. I don't have an opinion one way or the other on 
it.
    Mr. Gosar. If we gave you that data, could we get an 
answer?
    Ms. Colvin. I am sorry?
    Mr. Gosar. If we gave you that data, could we get an 
answer?
    Ms. Colvin. Get an answer to am I stunned?
    Mr. Gosar. Yes. Okay. Mr. Cristaudo testified that he was 
often very concerned about particular ALJs or hearing offices 
that were not processing cases quickly enough. Isn't that lack 
of a balance a major concern to you?
    Ms. Colvin. Well, I would think if he was the chief judge 
and he was concerned, he should have taken some action.
    Mr. Gosar. Okay. Knowing what we know now, was it a mistake 
for the agency to have no quality metrics to evaluate ALJ 
decisions as the agency encouraged ALJs to decide more cases?
    Ms. Colvin. Well, again, I am not going to focus on the 
past. But I certainly believe that you have to have quality 
metrics. I am very much into data and using that data for 
informed decisions. That is why we focus so much on quality.
    Mr. Gosar. So quality metrics is a determining factor that 
we would have to look at?
    Ms. Colvin. Well, quality is probably the sole factor that 
we should be looking at in determining whether or not, in fact, 
the decision is a quality decision, a legally, defensible 
decision, a policy compliant decision. We certainly want 
timeliness in the processing of cases. But we don't want 
timeliness to replace quality.
    Mr. Gosar. But if we don't look at the past, we are doomed 
to repeat it in the future, right?
    Ms. Colvin. Certainly. That is why we have made lots of 
improvements because we knew that the past was not where we 
wanted to be.
    Mr. Gosar. Since 2011, the agency conducted 30 focused 
reviews of all ALJs with allowance rates in excess of 75 
percent. Every one of these reviews found significant problems 
with the way these ALJs consider evidence. Are you concerned by 
this?
    Ms. Colvin. I don't understand the focus of your question. 
All of the changes that we are making are designed to improve 
what we are doing. So your question about am I concerned about 
what we did five or ten years ago, I am not sure I understand 
the relevancy of it.
    Mr. Gosar. Well, all the judges that you are reviewing have 
these types of problems, would you agree?
    Ms. Colvin. Well, that is why we are doing focused reviews, 
that is why we are doing pre-effectuation reviews. I'm just not 
certain I understand what you are trying to get to.
    Mr. Gosar. Will you provide the committee with all the 
agency's actions taken as a result of the agency's focused 
reviews of ALJs?
    Ms. Colvin. Can we provide you with?
    Mr. Gosar. All the agency's actions taken as a result of 
the agency's focused reviews of ALJs?
    Ms. Colvin. We have your questions, we will take a look at 
what it is that we have available.
    Mr. Gosar. Starting in 2007, when Frank Cristaudo was chief 
ALJ, ALJs were instructed to issue between 500 and 700 
decisions per year, correct?
    Ms. Colvin. That is my understanding.
    Mr. Gosar. Are you aware there are no underlying studies to 
justify the production targets?
    Ms. Colvin. That is what I am told.
    Mr. Gosar. Are you also aware that neither current chief 
ALJ Deborah Bice nor former chief ALJ Frank Cristaudo had no 
idea how long it takes an ALJ to decide a case when they are 
properly reviewing the evidence?
    Ms. Colvin. I am surprised to hear that, since they are 
both judges, that they would not know how long it takes.
    Mr. Gosar. You made the comment that each individual is an 
individual record, did you not?
    Ms. Colvin. Is an individual record?
    Mr. Gosar. Yes, it is exactly, very personal, I mean, the 
chart could be huge, the chart could be small.
    Ms. Colvin. Well, I haven't addressed that, you never asked 
me.
    Mr. Gosar. That it takes more time, I mean, the complexity 
of it, if it's a mental health issue, whether it is a complex 
medical issue. Wouldn't that kind of make it a personalized 
type of format?
    Ms. Colvin. I am certainly not a judge and I don't review 
cases, but I assume that there would be a variant, yes.
    Mr. Gosar. Do you think it is irresponsible to create a 
production goal without any analysis to back it up?
    Ms. Colvin. I don't have a production goal, so I can't 
respond to that.
    Ms. Gosar. I would acknowledge the gentleman from Virginia, 
Mr. Connolly.
    Mr. Connolly. I thank the Chair. Welcome, Ms. Colvin.
    I think it is really important to note this is part two of 
this set of hearings. And clearly, there is a narrative my 
friends on the other side of the aisle want to try to 
establish. But they are doing it by, I think, cherry-picking 
witnesses who distort the reality. So we get several 
administrative law judges with high allowance rates, in some 
cases exceeding 90 percent, even though the national average 
allowance rate is nowhere near that, it is in fact, 57 percent, 
as of last year, the lowest rate since Jimmy Carter was in the 
White House in 1979.
    So let's not distort facts here. Let's not try to 
manufacturer a narrative that, in fact, is misleading if not 
false.
    Commissioner Colvin, is it true that the disability 
insurance trust fund is forecast to become insolvent in 2016?
    Ms. Colvin. Not insolvent. In 2016, the reserves will be 
depleted. Income, or the resources that will be coming in will 
allow us to pay 75 percent of the benefit, yes.
    Mr. Connolly. Is that a serious thing? Could people be 
hurt?
    Ms. Colvin. Absolutely. People will be hurt. Congress has 
acted before to address that problem. It is not the first time 
that we have come to the situation where the reserves were 
depleted.
    Mr. Connolly. Right. Now again, the insidious nature of the 
undertone here in these two days of hearings is to allow the 
implication that, I am going to use the word insolvency, that 
the possibility of insolvency, impending insolvency, is because 
of mismanagement by the agency and administrative law judges 
running amok. Is it not true, however, that the trust fund was 
forecast to be possibly insolvent 20 years ago by the chief 
actuary of the Social Security Administration?
    Ms. Colvin. Absolutely, and the trustees. So we have known 
and Congress has known for a very long time that we would have 
this problem in 2016. And the trustees reports reflect that.
    Mr. Connolly. In fact, we had Ms. LaCanfora, the Acting 
Deputy Commissioner of the Office of Retirement and Disability, 
before this committee in April, or the subcommittee. She 
stated, the policy and the process and the management of the 
agency is not the cause of the reserve depletion. The cause of 
the reserve depletion is demographics. Baby boomers aging, 
women entering the workforce.
    Do you care to comment on that, Ms. Colvin?
    Ms. Colvin. Well, it has all been predicted. It is in our 
trustees reports, we have known that we would have the aging of 
the baby boomers and that they would be reaching the disability 
prone years, we knew more women were entering the workforce and 
they would have earnings on their own record. We knew that the 
poverty rate is going down, so we would have more children 
coming on to SSI rolls. I don't know why Congress expresses 
surprise. It is in writing in our trustees reports.
    Mr. Connolly. Yes. And well of course, if we really were 
determined to avoid a problem or do nothing about it 
creatively, we might try to pick on some tertiary issue that is 
really quite tangential to the heart and soul of what we are 
dealing with here, the reserve depletion.
    Ms. Colvin. I need to emphasize that our allowance rate is 
44 percent. It is the lowest it has ever been in the last 40 
years. In fact, I have many stakeholders who think it is too 
low. Of course, Congress thinks it is too high. But there has 
been a lot of effort to make sure that people who are on the 
rolls are people who deserve to be on the rolls. That is why we 
have the CDRs, because the CDRs will identify people who have 
improved and will go off the rolls.
    So I don't see any valid data to tell me that we have huge 
numbers of people on the rolls who are not disabled. In fact, 
we have a lot of people waiting who should be on the rolls.
    Mr. Connolly. And even if there were too many people, that 
is hardly the solution to the issue of the depletion of the 
reserve, isn't that right?
    Ms. Colvin. Absolutely. Also, when Congress changed the 
retirement age, that meant that more people are going to be on 
disability until they reach the retirement age. So that also 
added to the number of people being on the rolls.
    Mr. Connolly. So actually, Congress has something to do 
with the nature of the depletion?
    Ms. Colvin. Yes.
    Mr. Connolly. It isn't just a handful of administrative law 
judges who may have excessive allowances, is that correct?
    Ms. Colvin. I haven't seen the data, but I cannot believe 
that that number that is quoted about the number of dollars 
that would result from the allowance rates, I just have not 
seen it.
    Mr. Connolly. In the past, has Congress intervened when we 
have seen us get to a certain level in terms of the depletion?
    Ms. Colvin. Several times.
    Mr. Connolly. In fact, Congress has reallocated payroll 
taxes between Social Security programs at least six times in 
the past, is that not correct?
    Ms. Colvin. Yes.
    Mr. Connolly. And a similar rebalancing would, in fact, 
extend the life of the trust fund, allowing for full payment of 
benefits through 2033, is that not correct?
    Ms. Colvin. That is correct.
    Mr. Connolly. So maybe we could spend our time more 
creatively here in Congress talking about trying to find a 
solution to your problem rather than trying to finger blame in 
a tangential way that really begs the question. I yield back.
    Mr. Gosar. Would the gentleman like to input why the 
minority didn't bring their own witness to this hearing the 
last two days?
    Mr. Connolly. I don't speak for the minority, Mr. Chairman.
    Mr. Gosar. But you are a very articulate member.
    Mr. Connolly. Well, I thank the chair.
    Mr. Gosar. And they had the opportunity to do so. And it is 
acknowledged no minority witness was chosen.
    I would like to invite Ms. Lujan Grisham for her time at 
the dais.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. I appreciate 
that, and appreciate that we are having what I consider sort of 
two bites at the apple to start to look at disability cases and 
the system that Social Security has in place to review those 
cases.
    I would ask, Mr. Chairman, I have a statement that I would 
love to introduce into the record from an attorney in New 
Mexico who specializes in these cases and has been an effective 
advocate. He uses in his statement about some of the staffing 
shortages, information that comes right from the Social 
Security office's website.
    Chairman Issa. [Presiding] Without objection, that will be 
placed in the record.
    Ms. Lujan Grisham. Thank you very much, Mr. Chairman.
    There are 164 ODAR offices around the Country. How does the 
Social Security Administration determine the number of ALJs, 
decision writers and other support staff in each office?
    Ms. Colvin. I don't think I can give you that. I would have 
to get back with you, I need to consult with the deputy for 
ODAR on that.
    Mr. Lujan Grisham. But, no sense that it is based off the 
number of cases that each office receives.
    Ms. Colvin. We anticipate that a judge can only carry 
certain workloads. Of course, we don't know how many 
individuals are going to come into an office who need our 
services. But that is why, with electronic services, we can 
move
    Ms. Lujan Grisham. I would disagree. I think you do know. 
In fact, the Albuquerque office currently has the fourth 
highest number of cases per administrative law judge in the 
country. In fact, I have raised that point in writing, and in 
communications with the social Security Administration and have 
yet to get what I think is a satisfactory response, and we will 
get there, to what we might do about that.
    In fact, there are 822 cases per ALJ in the Albuquerque 
office. In the 16 other offices in the region, the average 
number of cases per ALJ is only 500. Does that sound correct to 
you?
    Ms. Colvin. I don't know that figure. But one of the things 
that we do is, we do move work around to help with 
understaffing. We are going to be hiring 200 new judges.
    Ms. Lujan Grisham. But certainly none in my region, which 
has the highest consistent cases, and identifying staff in 
other places, which I appreciate, given that we have 8,700 
people in New Mexico who are currently waiting for a hearing on 
their case, which creates, as you noted earlier, and I really 
appreciate that very much, that you noted there are significant 
other policy issues that are affected by not getting these 
cases adjudicated timely and by the fact that Congress has made 
policy changes that create more of a demand for Social Security 
disability.
    But when you outsource these cases, it is like putting a 
band-aid on a broken leg. If this is where you know you have 
significant issues, why aren't we making investments where we 
have the greatest backlogs?
    Ms. Colvin. Well, because we have them everywhere. We have 
the second longest waiting period in my own county of 
Baltimore, 17 months, before a case is actually heard. So I am 
trying to, with these new judges, look at how we redistribute 
cases but we just haven't had the resources.
    Ms. Lujan Grisham. And I understand that you do have that, 
and you have some offices around the Country with similar 
issues. But the Albuquerque office is an outlier among 
outliers, given the stats, the high disability cases, the 8,700 
people waiting three years before we get anything adjudicated.
    Do you think this severe, and let me just repeat that, the 
severe understaffing issues, like in Albuquerque, do you think 
they are acceptable?
    Ms. Colvin. No, I do not. Let me take a look at what is 
happening in Albuquerque, because it hasn't come to my direct 
attention.
    Ms. Lujan Grisham. I really appreciate that, and I know 
that these are tough issues and that they are going to take 
probably a range of options. But I do want to alert you that I 
have had very unsatisfactory, in terms of not getting the 
answer that I desire, but getting any suggestions or any 
answers about what do about this particular problem, in spite 
of reaching out locally, regionally, and nationally.
    Given that, when do you think you might be able to 
reevaluate Albuquerque's staffing issues?
    Ms. Colvin. As I mentioned, we have just authorized hiring. 
It is going to take us time to recruit and to train, et cetera. 
So I don't want to give you a date that I can't meet. Let me 
talk to my staff and get back to you.
    Ms. Lujan Grisham. One last question in the limited 
remaining time. I mean no disrespect, but this is critical.
    Ms. Colvin. I understand.
    Ms. Lujan Grisham. I have not received satisfactory, 
timely, timely responses. I need you to get back to me.
    Ms. Colvin. I will commit to that.
    Ms. Lujan Grisham. Two weeks? A month?
    Ms. Colvin. Two weeks. I may not have a complete answer for 
you, but at least I will be able to get back to you and let you 
know what we are looking at.
    Ms. Lujan Grisham. I am very grateful and thank you for 
your attention to this particular problem. Thank you, and with 
that, Mr. Chairman, I yield back.
    Chairman Issa. Thank you.
    Administrator, in 2011, some of the judges that were here 
yesterday got adverse reviews. Yet they are still on the bench 
and no action was taken.
    Ms. Colvin. When you say adverse reviews, what do you mean?
    Chairman Issa. They got negative focus reviews. The ranking 
member and I saw those judges, and we are not going to claim 
that we are medical experts. But it was pretty clear these four 
judges were not doing their job properly. Their incredibly high 
numbers are the result of their failure to do their job 
consistent with the norm of other judges. They are still on the 
bench.
    Ms. Colvin. Your question?
    Chairman Issa. Yes. Why are they still on the bench? Why 
have you not taken action against them that led to their 
dismissal in these three years?
    Ms. Colvin. I would need to look at their specific case and 
see what action is being taken.
    Chairman Issa. You came, you watched this hearing 
yesterday, you were brought here to answer our questions.
    Ms. Colvin. I didn't think you were going to ask personnel 
questions, so I didn't come prepared to answer them.
    Chairman Issa. We subpoenaed four bad judges, compelled 
three out of the four to come when they refused to come in any 
voluntary way.
    Ms. Colvin. I didn't know that.
    Chairman Issa. No one on your staff knew that?
    Ms. Colvin. I didn't ask. If they knew, I didn't see a 
reason to----
    Chairman Issa. Do you not take testimony before Congress 
seriously?
    Ms. Colvin. Absolutely I do.
    Chairman Issa. Then why didn't you prepare for today?
    Ms. Colvin. I think I am prepared.
    Chairman Issa. You haven't even been able to give me one 
answer to a question of what authority or flexibility would 
allow you to do your job better. And I appreciate that you want 
to give me a thoughtful response, but I have a near zero 
thoughtful response after people leave this hearing until the 
next time they come back. So although I hope for this not to be 
the case, it doesn't appear as though you prepared particularly 
well.
    Ms. Colvin. You gave me two days. You knew I was out of the 
country. You would not negotiate with my staff. I came in and 
immediately got ready for this hearing, so to suggest that I 
don't take it seriously; I had a death in the family, but 
because of the fact that you wanted this hearing today, I 
didn't even attend the funeral. So I am really annoyed that you 
would suggest that I don't take this seriously.
    Chairman Issa. Well, you didn't seem to come prepared to 
know about the judges we had yesterday. Are any of the people 
behind you able to answer that question?
    Ms. Colvin. No, they are not.
    Chairman Issa. Couldn't you turn around and look and see?
    Ms. Colvin. I am not going to have them discuss personnel 
issues here, Mr. Issa. I would be very happy after this meeting 
to stay here and answer them, or to give you a private meeting. 
But I am not going to discuss personnel actions here in open 
forum.
    Chairman Issa. I just asked why they were still on the job.
    Ms. Colvin. And I am saying, I don't know what the specific 
actions are that may or may not have been taken against these 
four judges. I would need to have a discussion----
    Chairman Issa. Okay, you said that there were no quotas, no 
performance. And yet, I am asking that this be placed in the 
record, because it cites specific quotes from Burke, Taylor, 
Beady and Cristaudo. These are judges who all testified there 
were. And they gave numbers.
    But let me just, and hopefully that review will help your 
people understand that your judges think there are performance 
numbers.
    And you said that you didn't see a correlation. But isn't 
it true that since the cap went down to 600 that, in fact, the 
approval rate, or the rubber stamp, as we like to call it from 
this side of the dais, has gone down, that, in fact, you are 
approving less?
    Ms. Colvin. Our approval rate today is 44 percent.
    Chairman Issa. That is the total approval rate. Your ALJs 
are not 44 percent, are they?
    Ms. Colvin. That is our overall.
    Chairman Issa. The ALJs overall reversal rate, I guess, 
technically, is 44 percent, you are saying today?
    Ms. Colvin. No, the average approval rate, the average 
national approval rate once you take out dismissals, is 44 
percent.
    Chairman Issa. That is people who apply and find out they 
are not disabled under any definition and then abandon it, 
right? That is not at the point of, we are dealing with the 
administrative law judges. Are you saying it is 44 percent with 
administrative law judges?
    Ms. Colvin. No, that would be our overall rate. I would 
have to see what the specific number is. But I thought it was 
44 percent. But I may be wrong, so I would need to confirm 
that.
    Chairman Issa. Let me ask you a question, you probably will 
have to give me a thoughtful answer over time. But you 
mentioned, and in our investigation, and in Senator Coburn's 
investigation, and quite frankly, in 60 Minutes' investigation 
in what was made very public, there was a practice that seemed 
to go like this. In that last few days or weeks before the ALJ 
looks at a case, the lawyers who specialize in getting 
approvals for their clients come in with new medical 
information, slip it into the file and get it in front of the 
judge, so the most recent information is usually something new 
to be considered. Are you aware of that?
    Ms. Colvin. No, I am not.
    Chairman Issa. Did do watch the 60 Minutes?
    Ms. Colvin. No, I did not.
    Chairman Issa. Did you look at anything that Senator Coburn 
put out over the last 14 months?
    Ms. Colvin. Yes, I have.
    Chairman Issa. He talks about that in his report, do you 
remember that?
    Ms. Colvin. I saw he did.
    Chairman Issa. So one question I have for you, and it is a 
very straight question, do you have the authority, if there is 
new information added, to seize a record, not have it go to the 
ALJ and throw it back through the process of review again at a 
lower level so that it not be presented to a judge when, in 
fact, it is not the same package that was previously rejected?
    Ms. Colvin. We are in the process of
    Chairman Issa. No, ma'am, I just asked if you had the 
authority.
    Ms. Colvin. Do I have the authority to?
    Chairman Issa. Do you have the authority to do that. Every 
time a lawyer at the last minute puts in additional information 
about his client, do you have the authority to have it go back 
through the review process and not go to the judge?
    Ms. Colvin. No.
    Chairman Issa. Would you like that authority?
    Ms. Colvin. No.
    Chairman Issa. Why not?
    Ms. Colvin. We have a pending regulation that will require 
all evidence be submitted in a timely way. If that moves 
forward, that will resolve our issue.
    Chairman Issa. So what you are saying is that no new 
information should go into the file even if, in fact, the 
patient is getting sicker during that last three, four, five 
months waiting for the ALJ?
    Ms. Colvin. I don't agree with that at all.
    Chairman Issa. Well, I am just asking you. You are the one 
that is talking about a proposed regulation.
    Ms. Colvin. No. No. My answer is no.
    Chairman Issa. No, what? No, you don't think----
    Ms. Colvin. I do not believe that if a person is getting 
sicker and new evidence is available that it should be 
precluded.
    Chairman Issa. So if it should be included, and you are 
telling me you are going to produce a regulation that says it 
has to be produced in a timely fashion, what you are saying is 
that you are still going to allow it and it is still going to 
go to the ALJ. Is that right? What does your regulating change?
    Ms. Colvin. We haven't developed that yet. We are just 
beginning to.
    Chairman Issa. Okay, so 14 months on the job, years into 
this process, 60 Minutes already made it clear that there was 
widespread fraud leading to taxpayers losing billions.
    Ms. Colvin. Do you believe everything that is on 60 
Minutes?
    Chairman Issa. Ma'am, you are not going to gain anything 
from this side of the dais by telling there isn't widespread 
fraud that is the reason that there is a Congressional hearing 
that you have been asked to be at.
    So making the assumption that there is widespread fraud, 
that your ALJs have overly approved in vast amounts, and it has 
cost the taxpayers billions of dollars they will never get 
back, I would ask you a simple procedural question. That change 
is outside the jurisdiction of this committee, but we are a 
reform committee. I ask you if any kind of flexibility or 
changes in law would help you. You said you would get back to 
me. I now ask you about one specific one, which is, did you 
have the authority, when new evidence comes in, to send it back 
to a lower administrator and not to an ALJ, have it reviewed 
and then only have it go to the ALJ if it is, in fact, rejected 
again, that they can look at this information, so the 
information coming to an ALJ is exactly the information that 
has previously been rejected, rather than ALJs constantly 
looking at new information at the last minute.
    I asked you if, in fact, you had that authority and you 
told me about a regulation that doesn't seem to have yet been 
finished.
    Ms. Colvin. I said no, we didn't have the authority.
    Chairman Issa. Would you like the authority?
    Ms. Colvin. No.
    Chairman Issa. Well, this committee recently gave the 
District of Columbia additional authority to change the height 
of buildings. But a little bit like the disappointment I had 
when I discovered that unanimously, the city council did not 
want the authority to make their buildings higher under any 
conditions, that they were afraid of having that authority, I 
am hearing here today that you can't come up with one piece of 
authority that would help you stop the widespread fraud that 
this committee, Mr. Cummings, Ms. Speier and others believe is 
part of it.
    And by the way, I want to note for the record that at least 
one ALJ had an allowance record of 15 percent, meaning there 
was somebody, at least one on the other extreme, and there are 
others that are low. So I am just as concerned about too low as 
too high, and trying to help you have the tools to do a better 
job. And I am very disappointed you weren't ready here today. I 
suspect we will be having another hearing and we will invite 
you back, perhaps with more advance time.
    Mr. Cummings, do you have closing remarks? The gentleman is 
recognized.
    Mr. Cummings. First of all, I want to express my sympathy 
for your loss.
    Ms. Colvin. Thank you.
    Mr. Cummings. I am sorry you were not able to make the 
funeral.
    I want to make sure I understand what happens here. When 
there is, and Ms. Lujan Grisham a little earlier, I don't know 
if you heard the questions I asked, but I got them from you, in 
talking to you. You have a situation in those first two 
exchanges where you have people who make a decision. In many 
instances, people don't have lawyers, in some instances they 
depend on where they are, who they are, they may not have 
doctors, medical homes or whatever. So they are denied quite 
often the benefits.
    Then they go, they basically appeal, to an administrative 
law judge, is that correct? Is that right?
    Ms. Colvin. Yes.
    Mr. Cummings. Now, let me say, the four people that 
testified yesterday, I don't think there were any accusations 
of fraud, there were issues of whether they followed policy and 
good conduct.
    Ms. Colvin. Right.
    Mr. Cummings. And by the way, there was testimony, if I 
recall correctly, that Judge Krasfur is on leave. That is my 
understanding.
    Ms. Colvin. That is correct.
    Mr. Cummings. All right. Now, one of the things that was 
said during that hearing, and I want to go to what the Chairman 
is getting to, because I really want to make sure I understand 
this, one of the things that they said was, one of the judges 
or maybe more, that there was a lot of times testimony or 
records that would come in later. And that they took that into 
consideration. And basically what they were saying is that the 
person's condition may have gotten worse, and then there was 
submittal of some kind of documents to show that.
    So how does that work? When you say that the record is 
supposed to be in, in other words, I am not trying to put words 
in your mouth.
    Ms. Colvin. No, what I was trying to convey was that we 
would not want to not have that information provided to the 
ALJ. If the person has waited over a year, that is through no 
fault of their own. If additional new evidence comes in that 
indicates that that condition has deteriorated, that may now, 
in fact, make them eligible for a benefit, they are entitled to 
have that medical information presented.
    So when I said that I would not want the authority to 
prevent that information from being presented to the ALJ, that 
is what I was speaking to. They should have that information to 
be able to make a decision about that case.
    Mr. Cummings. Okay, now if I understand the Chairman's 
question correctly, I think he was asking about, do you want 
the ability to send it back to one of the first few reviewers.
    Ms. Colvin. No, because you will start them all over again. 
The case is now with the judge, why not provide that additional 
documentation that will allow them to make a decision?
    Mr. Cummings. Yes.
    Ms. Colvin. Why start them all the way back to the 
beginning again.
    Mr. Cummings. I was thinking about the man in my district 
with prostate cancer who died waiting, and a number of others.
    So that then, with regard to these folks that came in here 
yesterday, you said it several times, you were concerned about 
them, right?
    Ms. Colvin. Yes, I am concerned, because they're not making 
policy-they may not be making policy compliant decisions. But 
again, just because of their award rate, we can't make a 
determination just on the award. We have to do the reviews, 
determine if there are policy decisions that are not being-
policies that are not being followed. One variable is not 
sufficient for removal of an ALJ.
    Mr. Cummings. I want to make a clarification here. I want 
to note that the majority had a staff report yesterday, and in 
most of the average lifetime benefit including the benefit from 
programs linked to enrollment in a disability program is 
$300,000. But this also includes the cost of Medicare and 
benefits estimated to be $109,000.
    While disability programs incur real costs and provide real 
benefits, I wanted to be clear on the cost of the benefits to 
the disability trust fund that is the focus of today's hearing. 
Ms. Colvin, the source document in the majority's estimate 
suggests that the present value of a disability alone is 
$163,000, is that right?
    Ms. Colvin. I think that is more likely.
    Mr. Cummings. Is this consistent with your understanding?
    Ms. Colvin. The average benefit is about $1,500 a month, I 
think. So I would have to look at the data.
    Mr. Cummings. Can you get that information back to me?
    Ms. Colvin. Yes.
    Mr. Cummings. Because I tell you, I just think about, I 
keep hearing this word, entitlement. And sometimes I have to, I 
think it is social insurance. Basically people pay into this.
    Ms. Colvin. It is an earned benefit.
    Mr. Cummings. I think about my father, for 45 years didn't 
miss a day, lifting drums, moving chemicals and paid into the 
system. I think about the many black men and white men who I 
worked with at Bethlehem Steel as a teenager who died, who died 
before they could get a penny. I think about folks who truly 
are suffering.
    I know we use that word entitlement, but the implication is 
that people don't pay into the system. And they do. They do. 
And they pay over and over and over again. So I just don't want 
to lose sight.
    And I want to make it very clear. I want us to deal with 
the outliers.
    Ms. Colvin. I do, too.
    Mr. Cummings. I want us to make sure that everybody has a 
fair side. I want to reduce the caseloads, I want to do all of 
that. And I want the system to work like it is supposed to 
work. That is what we are about here, we are supposed to be 
trying to make sure that government does what government is 
supposed to do. There are some who believe that maybe 
government shouldn't exist, but it does, and it must.
    So I am just hoping that we can work with you to try to 
address some of these issues. And I thank you very much for 
being here.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    Madam, a couple quick things. I have a letter I will ask 
unanimous consent to be placed into the record. Without 
objection, so ordered.
    It is from May 27th, inviting you to this hearing on June 
10th. Were you made aware of it?
    Ms. Colvin. I was out of the country for two weeks, and I 
know my staff negotiated with your staff. I came back to work 
on the 9th. And you agreed to have the hearing on the 10th, 
then it got moved to the 11th.
    Chairman Issa. Well, we moved it to the 11th to accommodate 
your request.
    So were you doing official business out of the country
    Ms. Colvin. No, I was on leave.
    Chairman Issa. Okay, so you are on vacation, you find out 
you have two weeks before this event. We add an extra day on 
the request of your folks. So I am terribly sorry for your 
loss, but I just want to make sure the record shows, it wasn't 
three days notice. You had two weeks notice.
    Ms. Colvin. I was out of the country when the notice came 
in. I had already left to go out of the country.
    Chairman Issa. Was your BlackBerry turned on?
    Ms. Colvin. Absolutely.
    Chairman Issa. So you knew there was a hearing in two 
weeks, correct?
    Ms. Colvin. I knew that the hearing was scheduled for the 
10th, yes.
    Chairman Issa. Okay, I just want to make sure that we 
understand that you did not have as much time to prep as you 
would like, because you were on vacation. And I understand 
that. That happens.
    Ms. Colvin. But I was not here in the country.
    Chairman Issa. I understand that you had less time to prep. 
I just want to make sure the record indicates it was two weeks 
advance notice of the hearing and we added an extra day.
    Ms. Colvin. Thank you for your consideration.
    Chairman Issa. You are very welcome.
    I want to go back through just one last closing point, and 
I am not going to ask it as a question, but if you care to 
respond to that, I will let you. This is not an adversarial 
relationship, when somebody goes up before an ALJ. It is all 
one-sided. The judge is very powerful. He or she has to 
evaluate what is being brought. Normally in front of the ALJ, 
the moving party, disabled or presumed disabled person is 
represented by a counsel who is being paid a commission on 
successful accomplishment, most often. And they have a 
motivation to get the job done, to get something for their 
client
    So you have an advocate for the client who has resources, 
who has medical professionals, if you will, doctors, that 
prepare and help the person make their case. Late in the case, 
after they have been turned down once or twice, and the ranking 
member is right, sometimes they are not represented by counsel 
at that time, sometimes they are. After they have been turned 
down twice, they come in with new information in the eleventh 
hour.
    There is nobody from the government who says, hold it, we 
want time to cross-examine that information, we want to 
consider it, we want to send this patient to an independent 
doctor, we want to make sure that this decision is good.
    So this documentation comes before a judge, and sometimes a 
judge who approves 90 some percent of the time, with new 
information not considered by the people who also work for you, 
the people who have already evaluated the earlier information.
    Now, there is a reason not every case goes directly to the 
ALJs. And you know the reason, which is, you have good, hard-
working professionals who are trying to find out whether or not 
to grant or not grant disability. Those people, when last 
minute information comes in and it goes to the ALJ, they are 
denied the best information. They are denied the opportunity to 
make a good decision.
    Now, procedurally, it happens all the time in courts all 
over America. Last minute information comes in, it is sent back 
to the lower decision, give us an update. We will low-number it 
back, you won't be prejudiced other than the time it takes for 
this new information to be properly evaluated. You won't be 
prejudiced and you will be low-numbered right back to the 
judge.
    That technique, if we give it to you, if you are not 
empowered to use it, and you never answered the question of, 
are you empowered to do it, but let's assume that you are not, 
if we give you that ability. That technique means your ALJs are 
not looking at cases that could be approved by lower 
individuals as far as the rest of your staff that would love to 
have had the full information, love to have made the decision 
and might have said yes.
    That is what I was saying. Of course, I don't want people 
to wait, in what we used to call in program, a do-loop. I don't 
want them to, every time their condition gets worse and they 
submit something to automatically wait another year. But there 
is no reason it couldn't go back to somebody whose job it is to 
make that first review. They make the first review. If they 
approve it, they are off to the races. If they disapprove it, 
they come back low-numbered to the judge.
    So when you go home over the next days and weeks before we 
likely call another hearing to this committee or another 
committee of Congress, I want you to really think, and I want 
you really to come back with the reforms, flexibility, changes 
that Congress could give you, or that you have that you haven't 
been using. Because I think that people on this committee, on a 
bipartisan basis, do believe that at least in some cases, the 
process is failing a person by their waiting too long to get a 
determination, waiting too long.
    And part of the reason is that the process is broken and 
too many people are getting in front of ALJs. If you have a 50 
percent reversal rate, that is too high. If you have a 99 
percent reversal rate, that is too high. The difference is what 
we want, and I believe the injured person or disabled person 
needs, is they need to get the right decision as early as 
possible at as low a level as possible. If there is a 
rejection, they have to understand that unless there is new 
information, that rejection will probably stand.
    Today that is not the case. The numbers speak for 
themselves. So we didn't bring you here to just say we are mad 
at you. We are not mad at you. You have only been on the job 14 
months and many things have improved during those 14 months. 
But I am disappointed that you weren't here with more proactive 
ways that we could continue doing a better job for those people 
who shouldn't get disability and for those people who should 
and aren't getting them or aren't getting them in a timely 
fashion. That is the goal of us, this is an entitlement, this 
is something that was earned, something that people are looking 
forward to as a safety net.
    And we are failing them. We are failing them in the time to 
adjudication and in some cases we are failing to protect the 
American taxpayer against lawyers who are smarter at proving a 
disability, or at least giving the image of a disability than 
we are at detecting it. On both sides of that, we want to get 
it right.
    If the dollars spent are exactly the same, will we get it 
right? Then Mr. Cummings and Mr. Issa and everyone else on this 
dais is happy. And if we get it wrong or people wait too long 
for this the way they have at the VA, then we have failed 
people who desperately need our help.
    That wasn't heard by any one person here today, but 
hopefully I have summarized what people on the left and the 
right want you to do.
    Mr. Cummings?
    Mr. Cummings. I don't have anything more, thank you, Mr. 
Chairman.
    Chairman Issa. Thank you. At that point, we stand 
adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
